<html>
<title> - OVERSIGHT HEARING ON THE DEPARTMENT OF THE INTERIOR'S ROLE IN THE EPA'S ANIMAS SPILL</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]









    THE DEPARTMENT OF THE INTERIOR'S ROLE IN THE EPA'S ANIMAS SPILL

=======================================================================

                           OVERSIGHT HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      Wednesday, December 9, 2015

                               __________

                           Serial No. 114-25

                               __________

       Printed for the use of the Committee on Natural Resources


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-867 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Louie Gohmert, TX                    Madeleine Z. Bordallo, GU
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Gregorio Kilili Camacho Sablan, 
John Fleming, LA                         CNMI
Tom McClintock, CA                   Niki Tsongas, MA
Glenn Thompson, PA                   Pedro R. Pierluisi, PR
Cynthia M. Lummis, WY                Jared Huffman, CA
Dan Benishek, MI                     Raul Ruiz, CA
Jeff Duncan, SC                      Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Matt Cartwright, PA
Raul R. Labrador, ID                 Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Norma J. Torres, CA
Jeff Denham, CA                      Debbie Dingell, MI
Paul Cook, CA                        Ruben Gallego, AZ
Bruce Westerman, AR                  Lois Capps, CA
Garret Graves, LA                    Jared Polis, CO
Dan Newhouse, WA                     Wm. Lacy Clay, MO
Ryan K. Zinke, MT
Jody B. Hice, GA
Aumua Amata Coleman Radewagen, AS
Thomas MacArthur, NJ
Alexander X. Mooney, WV
Cresent Hardy, NV
Darin LaHood, IL

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
             Sarah Parker, Democratic Deputy Chief Counsel
                                 ------                                









                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, December 9, 2015......................     1

Statement of Members:
    Beyer, Hon. Donald S. Jr., a Representative in Congress from 
      the Commonwealth of Virginia...............................     6
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     7
        Prepared statement of....................................    10
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     4
        Prepared statement of....................................     5
    Lummis, Hon. Cynthia M., a Representative in Congress from 
      the State of Wyoming.......................................     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Jewell, Sally, Secretary, U.S. Department of the Interior....    11
        Prepared statement of....................................    13
        Questions submitted for the record.......................    18

Additional Materials Submitted for the Record:
    EPA/BOR Superfund Work Authorization Form, Page 1 submitted 
      by Chairman Bishop.........................................    60
    List of documents submitted for the record retained in the 
      Committee's official files.................................    63
    Petri, Elliot, E-mail to Subcommittee Staff regarding the 
      Gold King Mine Incident, submitted by Representative Lummis    62
    Technical Evaluation of the Gold King Mine Incident, Pages 1 
      and 6 submitted by Representative Newhouse.................    61
 
OVERSIGHT HEARING ON THE DEPARTMENT OF THE INTERIOR'S ROLE IN THE EPA'S 
                              ANIMAS SPILL

                              ----------                              


                      Wednesday, December 9, 2015

                     U.S. House of Representatives

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The committee met, pursuant to notice, at 10:05 a.m., in 
room 1324, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Committee] presiding.
    Present: Representatives Bishop, Young, Gohmert, Lamborn, 
Fleming, McClintock, Thompson, Lummis, Benishek, Duncan, Gosar, 
Labrador, LaMalfa, Cook, Westerman, Graves, Newhouse, Hice, 
Hardy, LaHood; Grijalva, Napolitano, Costa, Sablan, Tsongas, 
Ruiz, Beyer, Torres, Dingell, and Gallego.
    Also present: Representative Lujan.
    The Chairman. All right, if I can have everyone please take 
their seats, I think we have a critical mass here to get 
started. I appreciate you being here; the committee is in 
order.
    I want you to notice the nifty new microphones that we have 
in front of you, because our old ones broke, literally. We will 
see how long these last before they break. But these, I 
believe, are temporary; so at some point today, everyone is 
just going to have to shout very loudly.
    Today, the committee is hearing testimony on the Department 
of the Interior's role in the EPA's Animas spill. Under 
Committee Rule 4(f), oral opening statements are limited to the 
Chair, the Ranking Member, the Vice Chair, and the Vice Ranking 
Minority Member of Mr. Grijalva's choice. Therefore, I ask 
unanimous consent that other Members' opening statements be 
made part of the hearing record, if they are submitted to the 
Committee Clerk by 5:00 p.m. today.
    [No response.]
    The Chairman. Hearing no objection, that will be so 
ordered.
    I also ask unanimous consent that Mr. Lujan from New Mexico 
be allowed to sit with this committee, when he arrives, and 
participate in the hearing.
    [No response.]
    The Chairman. Without objection, that will also be so 
ordered.
    I also would politely ask everyone in the hearing room if 
they would please silence their cell phones. This is going to 
allow for minimum distractions for both our Members and our 
guest, to ensure that we get as much out of this opportunity as 
possible, especially since we have problems with the 
microphones. I am afraid that your cell phones may interfere 
with our sound system; if not, just while we are landing. And, 
those of you in the audience, your cushions can also be used 
for flotation devices if we ever get to that point, as well.
    [Laughter.]
    The Chairman. With that, I would like to recognize the Vice 
Chair, Mrs. Lummis from Wyoming, for 5 minutes for an opening 
statement.

 STATEMENT OF THE HON. CYNTHIA M. LUMMIS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF WYOMING

    Mrs. Lummis. Thank you, Mr. Chairman, and good morning. 
Thank you for holding this hearing to follow up on the EPA's 
Animas River spill. When we met last, EPA Administrator 
McCarthy was here with us. Secretary Jewell, you were invited, 
as well; but I know you did not attend because the Bureau of 
Reclamation at Interior was chosen by the EPA to conduct the 
independent investigation of the disaster, and the 
investigation part was not yet complete. At least that was our 
understanding of your decision not to attend at that time; and 
that is fair enough.
    In your absence during that previous hearing, Administrator 
McCarthy repeatedly promised that the answers being sought 
would be contained in an independent report produced by the 
Department of the Interior. She also said the report would 
answer who was negligent, who was liable, who would be 
prosecuted, and how this type of spill could be prevented from 
happening again.
    Unfortunately, when we finally did get the independent 
report from the Bureau of Reclamation, it did not hold anyone 
accountable or find anyone at fault. It also did not explain 
why the EPA team made the decision it did that resulted in the 
spill.
    It gives us the appearance that the Department of the 
Interior apparently jointly decided with the EPA that these 
areas were beyond the scope of view, when, in fact, these were 
the precise questions that our previous hearing focused on. It 
also failed to resolve a dispute between EPA and the Colorado 
Division of Reclamation, Mining and Safety.
    We really appreciate you being here today, Secretary 
Jewell, hopefully to help us find answers to these questions 
that we cannot find in the report. We would like to know why 
the decision was made to move ahead with digging at the Gold 
King Mine site, if negligence contributed to that decision, 
whether or not Colorado state officials approved the decision 
to dig, and other questions the committee members still have.
    I note that your written testimony today also quickly 
shifts from discussing the incident to discussing the need for 
cleanup of abandoned mine land sites. This committee has 
already begun working on proposals toward that end, including a 
bill by Subcommittee Chairman Doug Lamborn, that would 
authorize BLM's Inactive and Abandoned Non-Coal Mine Lands 
Program and Representative Jody Hice's bill to create a 
Reclamation Foundation.
    We do need to acknowledge that the increase in claim 
location and maintenance fees, according to the change in 
percentage interest, as required by law, resulted in the 
relinquishment of more than 48,000 claims and a reduction in 
revenue of $8.5 million from these sources. Any proposals to 
fund further cleanup through these sources will have to be 
carefully examined. Given the perilous state of the commodities 
market, per ton fees on fill material moved, regardless of 
economic value, for hardrock and uranium mining may also not 
have the desired results, especially with concerns that 
hardrock mining companies would not be able to pass on the fee.
    Furthermore, I have developed some concerns about the 
Administration's POWER + Program, such as, ``How do you propose 
to set up an AML program for hardrock mining in which money is 
actually applied for its intended purpose, instead of being 
diverted into community development in regions where coal 
mining is declining? ''--especially because the decline is 
attributable to this Administration's war on coal.
    So, Secretary Jewell, before we can fix a problem, we need 
to know how and why it occurred. Back to Animas--I look forward 
to you helping our committee get more information about Animas, 
and I look forward to having a discussion about how the POWER + 
Program could be used to actually remediate and reclaim, as 
opposed to doing community development in communities that do 
not want to redevelop. They want to do what they are doing now 
with the people they have, the jobs they have, and the 
community and culture they enjoy.

    Thank you very much, Mr. Chairman.

    [The prepared statement of Mrs. Lummis follows:]
 Prepared Statement of the Hon. Cynthia M. Lummis, a Representative in 
                   Congress from the State of Wyoming

    Thank you Mr. Chairman, and thank you for holding this hearing to 
follow up on the EPA's Animas River spill. When we met last, EPA 
Administrator McCarthy was here with us. Mrs. Secretary, you were 
invited as well, but I know you didn't attend because the Bureau of 
Reclamation at Interior was chosen by the EPA to conduct the 
independent investigation of the disaster and the investigation part 
was not yet complete, at least that was our understanding of your 
decision not to attend at that time, and that's fair enough.

    In your absence, Administrator McCarthy, during that previous 
hearing, repeatedly promised that answers being sought would be 
conveyed in an independent report produced by the Department of the 
Interior and she said the report would answer who was negligent, who 
was liable, who would be prosecuted, and how this type of spill could 
be prevented from happening again. Unfortunately, when we finally did 
get the independent report from Bureau of Reclamation, it didn't hold 
anyone accountable or find anyone at fault, it also did not explain why 
the EPA team made the decision it did that resulted in the spill. And 
it gives us the appearance that the Department of the Interior 
apparently jointly decided with the EPA that these areas were beyond 
the scope of view, when in fact these were the precise questions our 
previous hearing focused on, it also failed to resolve the dispute 
between EPA and the Colorado Division of Reclamation, Mining and 
Safety.

    Now we really appreciate you being here today, Secretary Jewell, 
hopefully to help us find answers to these questions that we can't find 
in the report. We would like to know why the decision was made to move 
ahead with the digging at the Gold King Mine site, if negligence 
contributed to that decision, whether or not Colorado state officials 
approved the decision to dig, and other questions the committee members 
still have.

    I note that your written testimony also today quickly shifts from 
discussing the incident to discussing the need for cleanup of abandoned 
mine land sites. This committee has already begun working on proposals 
toward that end, including a bill by Subcommittee Chairman Doug Lamborn 
that would authorize BLM's Inactive and Abandoned Non-Coal Mine Land 
Program and Representative Jody Hice's bill to create a Reclamation 
Foundation. We do need to acknowledge the increasing claim location and 
maintenance fees according to the changed percentage interest as 
required by law, resulted in the relinquishment of more than 48,000 
claims and a reduction of revenue of $8.5 million from these sources. 
Any proposals to fund further cleanup through these sources will have 
to be carefully examined; given the perilous state of the commodities 
market, per ton fees on fill material moved regardless of economic 
value for hardrock and uranium mining, may also not have the desired 
results, especially with concerns that hardrock mining companies would 
not be able to pass on the fee.

    Furthermore, I've developed some concerns about the 
Administration's POWER + Program, such as ``how do you propose to set 
up an AML program for hardrock mining in which money is actually 
applied for its intended purpose instead of being diverted into 
community development in regions where coal mining is declining? '' and 
especially so because the decline is attributable to this 
Administration's war on coal.

    So Secretary Jewell, before we can fix a problem, we need to know 
how and why it occurred. Back to Animas, I look forward to your helping 
our committee get more information about Animas; look forward to having 
a discussion about how the POWER + Program could be used to actually 
remediate and reclaim, as opposed to doing community development in 
communities that don't want to redevelop. They want to do what they are 
doing now with the people they have, the jobs they have, and the 
community and culture they enjoy.

    Thank you very much, Mr. Chairman.

                                 ______
                                 

    The Chairman. Thank you.
    I now recognize the Ranking Member, Mr. Grijalva, for his 
opening statement.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Mr. Chairman; and thank you, Madam 
Secretary, for being with us here to discuss the Gold King Mine 
release.
    Madam Secretary, it is interesting that the Majority 
insisted you come here yourself to discuss an incident your 
agency is not responsible for, as opposed to one of the experts 
who worked on the technical review. I am not going to complain 
about that, because I am ecstatic that the Majority is actually 
taking on environmental concerns. And, I am glad you are here 
to discuss the real problem: the hundreds of thousands of 
abandoned mines that are leaking billions of gallons of toxic 
wastewater into streams and rivers across the country.
    These abandoned mines were created by the mining industry, 
not the Environmental Protection Agency; and we should not 
forget that. The dead fish, the ruined ecosystems, the orange, 
lifeless rivers--these are the mining industry's legacy, not 
the EPA's, and certainly not the Department of the Interior's. 
This is a serious problem that is going to require serious 
solutions.
    Unfortunately, I do not believe the Majority's proposed 
solutions are serious. Instead of requiring the mining industry 
to take responsibility for their legacy, they simply ask for 
volunteers. Instead of forcing the mining industry to live up 
to the same polluter pays principle as other industries, they 
ask the public to adopt an abandoned mine site, much as we have 
asked the public to adopt a highway, adopt a school, or adopt a 
park. We are now asking the public to adopt an abandoned mine 
site that is potentially contaminated and dangerous.
    And, faced with an abandoned mine problem that was recently 
estimated to cost anywhere from $10 to $20 billion to clean up 
on public lands alone, the Majority has proposed a grand total 
of $30 million. Yes, $30 million. That is not a serious way to 
address the problem.
    There is no way to clean these sites without requiring the 
mining industry to contribute to the legacy they created. That 
is why the Hardrock Mining Reform and Reclamation Act places a 
royalty on hardrock minerals such as gold, silver, and copper; 
and it requires the industry to pay a small fee for each ton of 
material they displace. That would raise hundreds of millions 
of dollars each year, and that is what you need to start to 
address the problem.
    Now, the Majority has taken an important first step, and 
fully admitted there is a problem with abandoned mines. 
Hopefully, Madam Secretary, we can now convince them that 
serious action is necessary to fix that problem.
    Unfortunately, it appears from the Majority's memo for this 
hearing, that the focus today is not going to be on the very 
real problem of abandoned mines. Instead, it sounds like we are 
going to focus on the imagined problems with the Bureau of 
Reclamation's technical report. Sadly, it seems that the 
Majority is falling back on their standard playbook of 
attacking the messenger when a report does not agree with their 
storyline.
    Madam Secretary, I do not want to attack the messenger. I 
want to attack the half-million abandoned mines throughout this 
Nation, many of which are ticking time bombs that we need to 
address sooner, rather than later. I hope that this will not be 
the last hearing we have on this committee about abandoned 
mines. I also hope we do not have to wait until we can blame a 
Federal agency before we hold the next one.

    Thank you, Mr. Chairman, and I yield back.

    [The prepared statement of Mr. Grijalva follows:]
   Prepared Statement of the Hon. Raul M. Grijalva, Ranking Member, 
                     Committee on Natural Resources

    Thank you, Mr. Chairman, and thank you, Madam Secretary for being 
here to discuss the Gold King Mine release.

    Of course, it's interesting that the Majority insisted that you 
come here yourself to discuss an incident that your agency is not 
responsible for, as opposed to one of the experts who worked on the 
technical review.

    But I am not going to complain about that, because I'm glad that 
the Majority is actually taking an environmental issue seriously.

    And I'm glad that you're here to discuss the real problem here: the 
hundreds of thousands of abandoned mines that are leaking billions of 
gallons of toxic wastewater into streams and rivers across the country.

    These abandoned mines were created by the mining industry, not the 
Environmental Protection Agency.

    We should not forget that.

    The dead fish, the ruined ecosystems, the orange lifeless rivers--
this is the mining industry's legacy, not the EPA's, and not the 
Department of the Interior's.

    This is a serious problem, and it will take serious solutions.

    Unfortunately, I do not believe the Majority's proposed solutions 
are serious.

    Instead of requiring the mining industry to take responsibility for 
their legacy, they simply ask for volunteers.

    Instead of forcing the mining industry to live up to the same 
Polluter Pays principle as other industries, they ask the public to 
Adopt an Abandoned Mine.

    And faced with an abandoned mine problem that was recently 
estimated to cost anywhere from $10 to $20 billion to clean up on 
public lands alone, the Majority has proposed a grand total of up to 
$30 million.

    That's million with an M.

    That's not a serious way to address this problem.

    There is no way to clean these sites up without requiring the 
hardrock mining industry to contribute.

    That's why my Hardrock Mining Reform and Reclamation Act places a 
royalty on hardrock minerals such as gold, silver, and copper, and 
requires the industry to pay a small fee for each ton of material they 
displace.

    This would raise hundreds of millions of dollars each year, and 
that's what you need to start to address this problem.

    Now that the Majority has taken an important first step, and 
finally admitted there is a problem with abandoned mines, hopefully, 
Madam Secretary, we can now convince them that serious action is 
necessary to fix it.

    Unfortunately, it appears from the Majority's memo for this hearing 
that the focus today is not going to be on the very real problem of 
abandoned mines.

    Instead, it sounds like we're going to focus on imagined problems 
with the Bureau of Reclamation's technical report.

    Sadly, it seems that the Majority is falling back on their standard 
playbook of attacking the messenger when a report doesn't agree with 
their storyline.

    Madam Secretary, I don't want to attack the messenger. I want to 
attack the half-million abandoned mines throughout this Nation, many of 
which are ticking time bombs that we need to address sooner rather than 
later.

    I hope that this will not be the last hearing we have in this 
committee about abandoned mines.

    And I also hope we don't have to wait until we can blame a Federal 
agency before we hold the next one.

    Thank you, Mr. Chairman, and I yield back.

                                 ______
                                 

    The Chairman. Thank you. Mr. Grijalva, I understand Mr. 
Beyer is giving the other statement. So, Mr. Beyer, you are 
recognized now for your opening statement.
    Mr. Beyer. Yes, thank you, Mr. Chairman; and thank you very 
much, Madam Secretary, for being here.

STATEMENT OF THE HON. DONALD S. BEYER, JR., A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF VIRGINIA

    Mr. Beyer. In the mid-1990s, when I was Lieutenant Governor 
of Virginia, we had three mine blowouts in the Commonwealth, 
three within 2 years. Yet, here we are today, discussing 
another, but somehow not talking about how to prevent future 
blowouts or improve efforts to clean abandoned mines.
    The incident at the Gold King Mine is a clear reminder to 
us here, and to the American public, that abandoned land mines 
are an issue we can no longer ignore. We need to be looking at 
meaningful Federal solutions to address abandoned mine lands; 
we cannot ignore the cause of the problem and the lack of 
funding to clean them up. None of the proposals that we have 
heard in committee actually tackle the problem at hand. We are 
having another hearing that ignores the elephant in the room.
    Instead, we are here looking for a scapegoat, despite the 
very clear paragraph in the Executive Summary of Interior's 
report. Let me quote, ``The uncontrolled release at Gold King 
Mine was due to a series of events spanning several decades. 
Groundwater conditions in the upper reaches of Cement Creek 
have been significantly altered by the establishment of 
extensive underground mine workings, the extension of the 
American Tunnel to the Sunnyside Mine, and the subsequent 
plugging of the American Tunnel. The final events leading to 
the blowout and the uncontrolled release of water occurred due 
to a combination of an inadequately designed closure of the 
mine portal in 2009, combined with EPA's misinterpretation of 
the groundwater conditions when reopening the mine portal in 
2014 and 2015.''
    Previously, I had equated our discussion of EPA's role in 
the Gold King Mine as blaming the cardiologist for failing to 
save a heart attack patient who had been smoking and drinking 
for 40 years; but this is actually worse, because this is like 
blaming another physician not involved in the operation who was 
asked to consult.
    If you read the Majority's memo, you would think that the 
Department of the Interior colluded with the EPA and hid 
evidence of guilt in a whitewashed report designed to throw the 
state of Colorado under the rug, and sweep the whole issue 
under the rug. Let me be clear. The mine was not on Interior 
land. The Interior Department was not working on this mine. The 
Department was required to respond to the release, and the 
Department certainly did not cause it.
    Despite the claims in the Majority's memo, from the very 
beginning, the Department said it was running a technical 
review, not a criminal one. The statement of work from the EPA 
dated August 20 is even titled, ``Technical Review of the Gold 
King Mine Assessment.'' Even in the technical report, I do not 
think the Bureau of Reclamation tried to sugarcoat anything. 
There are a lot of really hard recommendations here. They took 
a hard look at the issue; they were quite critical in their 
assessment. This caused both the EPA's Inspector General and 
the EPA's internal review team to expand the scope of the 
inquiries.
    Yesterday, the EPA released an addendum to their internal 
report that more deeply investigates some of the very things 
that the Reclamation report raised. So today, rather than 
looking for a scapegoat, we should be looking in a mirror. We 
have the power to address the abandoned mine lands issue.
    We should be talking about something of substance, like 
Ranking Member Grijalva's H.R. 963, the Hardrock Mining Reform 
and Reclamation Act, which actually tackles this issue. Between 
$9 billion and $21 billion is needed to clean up the abandoned 
mine lands, just on BLM and U.S. Forest land. So, just as the 
coal industry does for coal mines, we should be seriously 
considering a royalty system for hardrock mining.
    Thank you for being here, and we all look forward to your 
testimony.

    Thank you, Mr. Chairman.

    The Chairman. Thank you. I now recognize myself for 5 
minutes or more.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    The Chairman. I appreciate Congresswoman Lummis mentioning 
the bills that we are moving forward that deal with the 
abandoned mines. There are a trifecta of bills. You forgot Mr. 
Hardy's bill, that is part of that group. I want that to be 
recognized, as well.
    Even though some people may want to do that, today's 
discussion is not about abandoned mines. The focus is simply on 
the Department's role in the Animas River spill.
    At our September joint hearing, we had testimony from 
affected states and tribes. Today, we finally get to Secretary 
Jewell, and we are pleased to have you here. We hoped to have 
you earlier, but I understand you were in Paris. You really 
picked a bad time to go to Paris, that's for sure.
    The Interior Department is responsible for a myriad of 
resources impacted by EPA's disastrous 3 million gallon spill. 
The map on the screen shows all of the Department's resources 
in the affected area. Incidentally, this particular map has 
been derived from the committee's new Federal Footprint Map, 
which I hope will illustrate the scope of the Federal 
Government's vast ownership and control of land across the 
United States. You may be interested in looking at that in the 
future.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    This is the Four Corners region with Colorado in the 
northwest corner of the map. That red dot is the Gold King 
Mine. The spill flowed from there south into New Mexico, and 
then turned through Utah and Arizona, which are to the left. 
Each color on that map represents a different bureau ownership 
or land designation. This map illustrates that there are ESA-
protected species in the San Juan River, that there are BLM and 
Park Service lands in this area, and that the plume flowed 
through multiple Indian reservations.
    And, as it turns out, the Bureau of Reclamation, the bureau 
that conducted this so-called independent report, was 
consulting with the Gold King Mine before the spill. USGS 
worked with EPA to determine the volume of toxic water that was 
spilled. Aside from the work on the mine, the Bureau of 
Reclamation doubled its normal water release from the Navajo 
Dam to try to dilute the spill, which caused greater impact on 
the reservation lands than there was there before.
    This is in addition to the financial resources the 
Department of the Interior was providing to EPA for its 
project, the Gold King Mine, and other mines in that area. 
Given the breadth of Interior's involvement, the agency never 
should have agreed to do this review in the first place. DOI 
itself recognized that BLM, as a potentially responsible party 
under CERCLA, should not be involved; so it is baffling why the 
Bureau of Reclamation would be considered more objective.
    I also must point out the Administration's double standard 
regarding enforcing regulations. At the last hearing, many of 
my colleagues pointed out that EPA would have aggressively 
pursued criminal charges if a private company had caused the 
spill instead of the Federal Government. Since then, we have 
learned that EPA did not consult with the Fish and Wildlife 
Service on its activities at the Gold King Mine prior to the 
spill, and has not consulted with the Service on its response 
or the cleanup, as well.
    The Service's selective interpretation of the Endangered 
Species Act's consultation requirement is as hypocritical as 
the EPA's selective enforcement of its environmental 
regulations. Average Americans are threatened and prosecuted 
for failing to abide by the ESA, but when EPA spills millions 
of gallons of contaminated mine water into a river with 
critical habitat, or writes new rules for power plants to keep 
manatees and Americans warm in the winter--these same laws just 
simply don't apply.
    Instead of holding the EPA accountable for its mistakes, 
the Department issued a report in October that totally glossed 
over the most critical questions about how and why the spill 
occurred. I am sorry, but the BOR report is factually 
inaccurate in parts, and sometimes downright misleading. While 
the Interior Department may not have caused the spill, it is 
responsible for--in the words of one New Mexico official, ``Its 
invisible response following the spill,''--and for this so-
called independent report.
    EPA publicly promised, including before this committee, 
that their report would uncover whether there were wrongdoings; 
and they even announced they were halting work on thousands of 
mine sites nationwide pending the outcome of this report. 
Unfortunately, the report does not give those answers, and 
raises more questions than it answers.
    That is why this committee has requested information from 
the Department of the Interior to better understand the 
agency's conduct before, during, and following the issuance of 
this report. States, tribes, and Americans impacted by this 
disaster expect a prompt, thorough, and transparent look at 
this serious issue.
    Unfortunately, the Department delayed its response to 
information requests for weeks. Then they dumped thousands of 
documents, hundreds of them heavily redacted, including many a 
few days before this hearing. Rest assured, these tactics will 
not stop this particular committee--and I do consider them to 
be tactics.
    Another thing that will not impede the committee's 
investigation is EPA's astounding unveiling last night at 6:28 
p.m. of entirely new information about the Gold King Mine 
disaster. If you are not aware--I am sure you are all aware of 
that, but it is an unusual thing to do.
    One last thing I would like to note, as I look forward to 
exploring these topics today, is that I appreciate your 
willingness to be here with us, Ms. Jewell, as we go through 
this important issue.

    [The prepared statement of the Chairman follows:]
   Prepared Statement of the Hon. Rob Bishop, Chairman, Committee on 
                           Natural Resources

    Today's hearing will focus on the Interior Department's role in 
EPA's Animas River spill. At our September joint hearing, we heard from 
affected states and tribes--today, we finally will hear from Secretary 
Jewell and we're pleased to have you here today.

    The Interior Department is responsible for a myriad of resources 
impacted by EPA's disastrous 3 million gallon spill. The map on the 
screen shows all of DOI's resources in the affected area. Incidentally, 
this map was derived from the committee's new Federal Footprint Map, 
which I hope will help illustrate the scope of the Federal Government's 
vast ownership and control of land across the United States.

    This is the Four Corners region, with Colorado in the northeast 
corner of the map. That red dot represents Gold King Mine, and the 
spill flowed from there south to Farmington, New Mexico in the 
southeast corner and then through Utah and Arizona on the left.

[See map on page 8]

    Each color represents a different bureau ownership or land 
designation.

    The map illustrates that there are ESA-protected species in the San 
Juan River. There are BLM and Park Service lands in the area. The toxic 
plume flowed through multiple Indian reservations. And it turns out 
that the Bureau of Reclamation--the bureau that conducted this so-
called ``independent'' report--was consulting on the Gold King Mine and 
the Red and Bonita projects before the spill. USGS worked with EPA to 
determine the volume of toxic water that was spilled. And aside from 
its work on the mine, BOR doubled its normal water releases from the 
Navajo Dam to try to dilute the spill. This is in addition to the 
financial resources DOI was providing to EPA for its projects at Gold 
King and other mines in the area.
    Given the breadth of Interior's involvement, your agency never 
should have agreed to do this review in the first place. DOI itself 
recognized that BLM, as a ``Potentially Responsible Party'' under 
CERCLA, shouldn't be involved. It is baffling why BOR would be 
considered more objective.
    I also must point out the Administration's double-standard 
regarding enforcing regulations. At the last hearing, I and many of my 
colleagues, pointed out that EPA would have aggressively pursued 
criminal charges if a private company had caused the spill instead of 
the Federal Government.
    Since then, we've learned that the EPA didn't consult with the Fish 
and Wildlife Service on its activities at Gold King Mine prior to the 
spill, and it hasn't consulted with the Service on its response or 
cleanup after.
    The Service's selective interpretation of the Endangered Species 
Act's consultation requirement is as hypocritical as EPA's selective 
enforcement of its environmental regulations. Average Americans are 
threatened and prosecuted for failing to abide by the ESA, but when EPA 
spills millions of gallons of contaminated mine water into a river with 
critical habitat--or writes new rules for power plants that keep 
manatees and Americans warm in the winter--the same laws just don't 
apply.
    And instead of holding EPA accountable for its mistakes, your 
Department issued a report in October that totally glossed over the 
most critical questions about how and why the spill occurred. Parts of 
the BOR report are factually inaccurate and downright misleading. While 
the Interior Department may not have caused the spill, it is 
responsible for its ``invisible'' response following the spill, as a 
New Mexico official called it, and for this so-called ``independent'' 
report.
    EPA publicly promised--including before this very committee--that 
your report would uncover whether there was wrongdoing and even 
announced it was halting work at thousands of mine sites nationwide 
pending the outcome of your report. Unfortunately, the report raises 
many more questions than it answers.
    That is why this committee has requested information from you and 
your Department to better understand the agency's conduct before, 
during, and following the issuance of your report. States, tribes, and 
Americans impacted by the disaster expect a prompt, thorough, and 
transparent look at this serious issue.
    Instead, your Department delayed its response to information 
requests for weeks, then dumped thousands of documents, hundreds of 
them heavily redacted, including many a few days before today's 
hearing. Rest assured that these tactics will not stop the committee 
from seeking complete answers.
    Another thing that will not impede this committee's investigation 
is EPA's astounding unveiling last night at 6:28 p.m. of entirely new 
information about the Gold King Mine disaster. I'm sure you're already 
aware of this, but over the last week, EPA has apparently been working 
feverishly to create new ambiguous and redacted documents that 
supposedly answer questions your report didn't even mention but that 
this committee has been raising for months.
    And on that note, I very much look forward to exploring these 
topics during the hearing, and I thank you for appearing today.

                                 ______
                                 

    The Chairman. With that, I am going to start the 
questioning. Once again, I will remind everybody that every 
Member will have 5 minutes to ask questions. I would ask 
Members, as well as those who are responding, to--actually, we 
are not going to start that; I have not given you a chance to 
say something yet. I am so excited to have you here that I am 
getting off script.
    I will remind everyone again ahead of time, you have the 
timer in front of you. The timer does work. I am asking two 
things. As we get past the opening statement and start asking 
questions, make sure that if you are going to ask a question, 
give our guest time to answer the question, or don't ask it at 
all. No questions should be asked within the last 30 seconds of 
the time that is on the clock there, just for the fairness 
within.
    Now, with that, I want to thank the Honorable Sally Jewell, 
who is the Secretary of the Department of the Interior, for 
being here. You are accompanied today by--and I hope I get this 
right--Mr. David Palumbo. Is that correct? I actually said it 
right? I am proud. He is the Deputy Commissioner for Operations 
at the Bureau of Reclamation.
    Your written statement is, obviously, part of the record. 
You know the drill. You have 5 minutes. The lights are there in 
front of you.
    Let me recognize Ms. Jewell for your testimony, and I 
apologize for actually skipping that--you may be happier if I 
actually skip past it, but this is your chance to respond. You 
are on.

 STATEMENT OF SALLY JEWELL, SECRETARY, U.S. DEPARTMENT OF THE 
                    INTERIOR, WASHINGTON, DC

    Secretary Jewell. Thank you, Chairman Bishop, Ranking 
Member Grijalva, and members of the committee. I am here to 
discuss the Department's actions following the Gold King Mine 
incident. I have submitted a written statement for the record, 
and I will highlight a few key points that relate to the 
Department's responses to the release, and to the larger 
problem of abandoned mine lands, in general.
    Joining me today is David Palumbo, Deputy Commissioner of 
the Bureau of Reclamation, who oversees the Technical Service 
Center, among other duties.
    Let me begin by saying that once the Department of the 
Interior was notified of the incident, its response was robust. 
Our regional environmental officers in Denver, Albuquerque, and 
San Francisco began sharing information with regional bureau 
staff, and monitoring the situation. While the Gold King Mine 
is on private land, DOI has management responsibilities in the 
area, and our bureaus began carrying out coordinated response 
activities to support EPA's on-scene coordinator to protect 
resources and to meet management responsibilities.
    Key actions by our bureaus included Reclamation increasing 
the release of water from the Navajo Reservoir to help dilute 
mine contaminants moving through the San Juan River, and 
alleviate concerns that the river fish and wildlife might be 
impacted.
    On the ground, we were collecting and sampling water for 
impacts, and carrying out field surveillance of fish 
communities in the Animas and San Juan Rivers. These actions, 
and those by other bureaus, were instrumental in providing 
coordination and support to EPA during its continued response.
    The Bureau of Indian Affairs also provided important 
assurances to communities along the San Juan River that their 
drinking water was safe. BIA conducted water sampling at five 
Bureau of Indian Education schools along the river, and 
activated an Incident Management Team in its Navajo region that 
provided emergency livestock drinking water to users impacted 
by closure of the San Juan River. Deputy Secretary Connor 
recently visited the Navajo Nation and met with President 
Begaye and members of the Nation who were affected by the 
release, and reaffirmed our commitment to our trust 
responsibility.
    BIA has continued to monitor water used by tribes for 
drinking, irrigation, and agriculture; and the Fish and 
Wildlife Service is providing support on wildlife issues 
related to the incident.
    In addition to these on-the-ground actions, shortly after 
the incident, EPA asked the Department to carry out a technical 
review of the release. Led by Reclamation, this independent 
review of the factors contributing to the incident also 
provided recommendations to prevent such incidents in the 
future.
    It was carried out by career technical staff with expertise 
in abandoned mine remediation, and was peer-reviewed by the 
USGS and the U.S. Army Corps of Engineers. This technical 
review found the release was due to events spanning several 
decades, and that actions taken by the EPA, in consultation 
with the state of Colorado's Division of Reclamation, Mining 
and Safety, led directly to the incident.
    The report noted that the conditions and actions of this 
incident are not isolated or unique, and are surprisingly 
prevalent, underscoring the need for more focus and funding for 
abandoned mine remediation across this country. The report 
identifies that there are few written requirements or 
consistent guidelines governing abandoned mine lands 
remediation, specifically when it comes to engineering 
standards.
    Finally, this incident highlights a significant and costly 
problem of abandoned mine lands, which are a threat on private, 
state, and Federal lands. These sites are prevalent throughout 
the West, where legacy hardrock mining activities were 
concentrated. It is not a new problem. Many sites were mined 
prior to the enactment of Federal laws that require 
reclamation. For those sites where no responsible party is 
found, the Federal Government and, ultimately, the taxpayer, 
often bears the cost of addressing public safety risks and 
threats to the environment.
    Within the Department, the significant concentration of 
abandoned mine lands occurs primarily on BLM and National Park 
Service lands. BLM's program has identified approximately 
50,000 sites with an average of 5,400 new sites discovered each 
year. The National Park Service recently completed its first 
comprehensive inventory and assessment of abandoned mine sites 
in the system, and identified over 37,000 abandoned mine land 
features. Over 10 percent of these, or 3,800, require remedial 
action to mitigate public safety threats and environmental 
impacts.
    Reclamation work for dangerous sites requires cooperation 
with state, local, and other Federal partners, and is a 
resource-intensive operation. The Department continues to 
request funds to address this problem, and prioritizes and 
addresses these activities within available resources. Since 
2012, the Administration has included in its budget request a 
legislative proposal authorizing a reclamation fee on uranium 
and metallic mines with receipts used for reclamation 
activities on non-Federal and Federal lands.
    It is unfortunate that the catalyst to address a problem is 
often an incident like this. The Department stands ready to 
work with this committee and Congress to address the issue in a 
meaningful way.
    Thank you, and I am happy to respond to any questions you 
may have.
    [The prepared statement of Ms. Jewell follows:]
    Prepared Statement of Sally Jewell, Secretary of the Interior, 
                             Washington, DC
                              introduction
    Chairman Bishop, Ranking Member Grijalva, and members of the 
committee, I am happy to appear before you today to discuss the 
Department of the Interior's response to the Gold King Mine incident 
and the Bureau of Reclamation's subsequent technical review and 
assessment of the incident, which was carried out at the request of the 
Environmental Protection Agency. The Department appreciated the 
opportunity to brief your staff on several recent occasions on its work 
related to the Gold King Mine incident.
    Reclamation's ``Technical Evaluation of the Gold King Mine 
Incident'' (``technical review''), made available in October, contains 
a brief summary of the mine's history and the events that led to the 
incident on August 5, 2015. While the Gold King Mine portal is not on 
Federal land and is not under the Department's jurisdiction, several of 
the Department's bureaus do have management responsibilities downstream 
of the mine and took response actions, discussed in more detail below, 
as a result of the incident.
    An important point, also discussed in more detail below, is the 
finding in Reclamation's technical review that the conditions and 
actions that led to the incident are not unique to this situation and 
are prevalent throughout the West where legacy hardrock mining 
activities have impacted the environment. As is so often the case, it 
is unfortunate that an incident like this has to happen to highlight an 
issue that land managers in both the state and Federal Governments have 
been grappling with for years--that addressing abandoned mine lands is 
a nationwide problem, and mitigating toxic substances released from 
many of them is a significant undertaking. Abandoned mine lands are 
located on private, state, Federal, and tribal lands. There are tens of 
thousands of abandoned hardrock sites on Federal lands alone. Many of 
these abandoned mine land sites were mined prior to the implementation 
of Federal surface management environmental laws that require 
reclamation and remediation to take place. For those mine sites where 
no viable potentially responsible party can be determined, the Federal 
Government, and ultimately the taxpayer, often bears the burden of 
addressing these threats to public safety, human health, the 
environment, and wildlife, rather than the entities that developed and 
profited from the operations.
    Addressing the reclamation and remediation of abandoned hardrock 
mine lands is a costly problem and one that requires a long-term 
funding source. To better address the hardrock abandoned mine land 
problem and to ensure that an equitable share of the costs of 
reclamation of these abandoned mine lands (AML) sites are not solely 
borne by the taxpayer, the Administration has proposed legislation that 
would hold the hardrock mining industry responsible for the remediation 
of abandoned hardrock mines, just as the coal industry is responsible 
for remediating abandoned coal sites. The proposal would levy an AML 
fee on uranium and metallic mines on both public and private lands, and 
the receipts would be split between Federal and non-Federal lands. The 
proposed hardrock AML fee and reclamation program will operate in 
parallel with the existing coal AML reclamation program as part of a 
larger effort to ensure the most dangerous abandoned coal and hardrock 
AML sites are addressed by the responsible industries. We welcome the 
opportunity to work with the committee and Congress to address this 
significant challenge.
    This statement will briefly discuss the Department's response in 
the days immediately following the Gold King Mine incident, 
Reclamation's technical evaluation of the incident, and will conclude 
with a discussion of abandoned mine lands managed by the Department and 
the Department's priorities moving forward.
                       gold king mine discussion
    The Department's, and its bureaus', involvement in the August 5, 
2015, incident began when it was notified of the release. At that time, 
the Department's Regional Environmental Officers in Denver, 
Albuquerque, and San Francisco began monitoring the situation and 
sharing information with each other and with regional contacts in the 
bureaus.
    Our bureaus with management responsibilities in the impacted 
region--the Bureau of Reclamation, the Bureau of Indian Affairs, the 
U.S. Fish and Wildlife Service, the National Park Service, and the 
Bureau of Land Management--as well as the U.S. Geological Survey, began 
carrying out coordinated response activities in support of EPA's On-
Scene Coordinator. A survey of those activities is detailed below.
    At the request of, and in collaboration with, staff from the San 
Juan River Basin Recovery Implementation Program in the FWS's New 
Mexico Ecological Services Field Office, Reclamation increased the 
release of water from Navajo Reservoir from 650 to 1,300 cubic feet per 
second in order to maintain a target base flow through the endangered 
fish habitat of the San Juan River. The increase helped dilute mine 
contaminants moving through the San Juan River and helped alleviate 
concerns that the river and endangered fish and wildlife might be 
impacted. This increase did not result in any lost hydropower at Navajo 
Dam.
    The BIA conducted drinking water sampling as a precautionary 
measure at five Bureau of Indian Education schools along the San Juan 
River. BIE and the schools were advised that none of the potable water 
at the facilities was impacted by the incident, but the testing 
schedule was implemented to provide further assurance to the 
communities. BIA has continued to monitor water used by tribes for 
drinking, irrigation, and agriculture. BIA's Navajo Region also 
activated an Incident Management Team, which provided emergency 
livestock drinking water to impacted users along the San Juan River 
within the Navajo Nation following its closure for agricultural and 
livestock water uses. The Incident Management Team provided and managed 
water tanks in various community locations for this effort. Incident 
management assistance was also provided to EPA through the BIA's 
Southwest Regional Office.
    The FWS worked with the Navajo Dam operators on the increased water 
releases into the San Juan River. With the New Mexico Fish and Wildlife 
Coordination Office, FWS also conducted on the ground surveillance of 
the fish community in the Animas and San Juan Rivers, as well as field 
sampling of fish communities and surface water, to monitor impacts from 
the incident. The San Juan River was determined to be at pre-incident 
levels, and the Animas River was re-opened to recreation on August 14. 
FWS is continuing to provide support on wildlife issues related to the 
incident.
    The NPS staff at Glen Canyon National Recreation Area provided 
logistics and coordination support to EPA for water sample collections 
both on the San Juan River and in the San Juan Arm of Lake Powell, 
including a boat, a boat operator, housing, and equipment. NPS staff at 
Aztec Ruins National Monument, where an irrigation canal off the river 
extends into the park, independently collected and analyzed sediment 
samples.
    The BLM sent a team to assess the situation on the BLM land 
downstream from the mine to determine if any mitigation efforts were 
necessary, and worked with the EPA to provide access across BLM lands 
to pipe water from the Gold King Mine to EPA's treatment plant. The BLM 
also coordinated with San Juan and La Plata counties in Colorado to 
verify safe access to BLM recreation areas and to notify the public 
about the spill. In Utah, the BLM kept river permit holders and other 
recreationists along the San Juan River abreast of the incident as it 
evolved.
    Finally, the USGS, in cooperation with the EPA, gathered streamgage 
data in order to confirm the origin of the stream flow spike at Cement 
Creek and the volume of the spike estimated at 3 million gallons. USGS 
also took water and sediment samples and provided both current and 
historical water quality data to EPA. Just last week, USGS launched a 
new Web site that will make available to the public data, images, 
interactive maps, and reports related to the Gold King Mine incident.
              bureau of reclamation's technical assessment
    Shortly after the incident, EPA asked the Department to conduct the 
independent technical review of the incident. That review, led by 
Reclamation, was designed to be an independent assessment of the 
factors that contributed to the incident, including the cause of the 
incident, and it was to provide recommendations to prevent such 
incidents from occurring in the future.
    The review was carried out in accordance with the Department's 
scientific integrity policy by career staff at Reclamation's Technical 
Service Center in Lakewood, Colorado, with expertise in abandoned mine 
remediation. The U.S. Army Corps of Engineers and the USGS peer-
reviewed Reclamation's research and findings and in October the final 
report was made available online.
    In conducting the technical review, Reclamation examiners adhered 
to the areas of review that were delineated in the work authorization 
between the two agencies. Reclamation defined the scope of that 
authorization to include a review of the history of mining operations 
and remediation activities in and around the Gold King Mine; site 
conditions prior to and after the incident; the activities that led up 
to the incident; the remediation work plan; and industry standards and 
practices for abandoned mine remediation.
    As discussed in the report of its technical review, Reclamation 
concluded that the uncontrolled release at Gold King Mine was due to a 
series of events spanning several decades. Groundwater conditions in 
the upper reaches of Cement Creek have been significantly altered by 
the establishment of extensive underground mine workings, the extension 
of the American Tunnel to the Sunnyside Mine, and the subsequent 
plugging of the American Tunnel. The final events leading to the 
blowout and uncontrolled release of water occurred due to a combination 
of an inadequately designed closure of the mine portal in 2009 combined 
with a misinterpretation of the groundwater conditions when reopening 
the mine portal in 2014 and 2015.
    The report also made broader findings, including that the 
conditions and actions that led to the incident are not isolated or 
unique, but are quite prevalent. As specifically noted in the report:

        The standards of practice for reopening and remediating flooded 
        inactive and abandoned mines are inconsistent from one agency 
        to another. There are various guidelines for this type of work 
        but there is little in actual written requirements that 
        government agencies are required to follow when reopening an 
        abandoned mine.

    In effect, this incident highlights a significant and costly 
problem, nationwide. Abandoned mines pose a serious threat on private 
lands, on state lands, and on lands managed by the Department and there 
is little standardized guidance, standards, or resources to address it.
                          abandoned mine lands
    The issue of abandoned mine lands on Federal lands was last 
highlighted by the Department in its Statement for the Record submitted 
for the committee's September 17 joint hearing with the Oversight and 
Government Reform Committee on the incident. This is not a new problem, 
but instead one that governments at the state and Federal level have 
been grappling with for a long time.
On Public Lands
    In total, the Department manages over 500 million acres of land, 
together with associated waterways and plant and animal species. Given 
the amount of land managed by the Department, addressing hazards 
created by abandoned mines on Federal lands is an important objective. 
The significant concentration of known abandoned hardrock mines and 
related features on lands under the Department's jurisdiction occur 
primarily on BLM and NPS-managed lands and are associated with both 
public safety hazards and human health, environmental, and natural 
resource impacts resulting from exposure to heavy metals released from 
mines and present in mine and mill tailings.
    Over the last 150 years, much of the public land managed by the BLM 
has experienced some form of hardrock mining activity, which has ranged 
from exploration to full development. In many cases, this activity has 
resulted in disturbed and sometimes contaminated land across parts of 
the West. Mining activities conducted prior to January 1, 1981, the 
effective date of the BLM's Surface Management regulations, were often 
not properly reclaimed, and in many cases no financially responsible 
party exists to help pay for the cleanup. The BLM's abandoned mine land 
program, which is aimed at enhancing public safety and improving water 
quality by reducing or eliminating the effects of past hardrock mining, 
has identified over 50,000 AML sites on BLM administered public lands.
    Each year an average of 5,400 new AML sites are discovered on 
public lands, with many millions of acres of BLM lands remaining to be 
inventoried. The BLM continues to develop new processes to more 
effectively inventory priority AML sites on the nearly 250 million 
acres of surface estate and 700 million acres of mineral estate that it 
manages. This inventory work focuses on high-priority areas, as 
established by physical safety, human health, and environmental risk 
criteria. Over the last 6 years the BLM has mitigated physical safety 
issues at 6,321 AML sites, restored the water quality on 8,435 acres of 
BLM managed land, and conducted monitoring on 5,138 AML sites.
    The BLM prioritizes abandoned mine reclamation work based on public 
safety, human health, and environmental risk. The highest priority is 
given to mines that present the greatest safety risk to the public, 
such as those located closest to population centers, schools, or 
recreation areas, and those with the greatest potential environmental 
concern. Criteria for the ranking of environmental sites includes human 
presence, threat to the environment, relative toxicity of contaminants, 
impacted media and location of the site relative to surface water and/
or groundwater, aquifer characteristics, and soil or sediment 
characteristics.
    In Colorado, the BLM has prioritized site reclamation in the Gold 
King Mine area and is coordinating with the local community and other 
agencies to develop a comprehensive solution for the large number of 
abandoned mine sites in the area, which are both on Federal and non-
Federal lands.
    AML sites are also present on NPS lands throughout the country. The 
NPS began to collect data on AML sites on park lands in 1983, and in 
September 2014 completed the first comprehensive inventory and 
assessment of AML sites in the park system. Extraction activities left 
behind 37,050 AML features in 133 units of the park system. The vast 
majority--81 percent--of features are located in the NPS Pacific West 
Region, especially in Death Valley National Park, Mojave National 
Preserve, and Lake Mead National Recreation Area. However, AML features 
are distributed throughout the park system and are a significant 
management issue in all regions.
    The majority of AML features on NPS lands--31,437, or almost 85 
percent--do not require remedial action either because they do not 
constitute a threat to human health and safety or generally do not pose 
a natural resource problem. Almost 1,800 features on NPS lands (about 5 
percent) have already been remediated. However, over 3,800 of these 
features (over 10 percent) in 76 park units do require remedial action 
to mitigate public safety threats and natural resource impacts. The 
NPS's 2016 budget request includes $5 million in Line Item Construction 
funding to initiate AML remediation efforts; however, NPS is continuing 
efforts to fund a comprehensive program that will fully and efficiently 
mitigate safety hazards and resource impacts at AML sites through the 
national park system.
    According to the NPS, the principal cause of death at AML sites 
nationwide is drowning in water-filled quarries and pits. Other risks 
include vertical drop-offs; unstable structures and rock falls; deep 
and unstable pit walls; deadly gases and radioactive air; abandoned 
explosives; hazardous chemicals; and high concentrations of 
contaminants inherent to the mineral deposit. Mine contaminant releases 
can affect natural resources such as air, soil, and water quality as 
well as plant and animal health.
    The responsibility to reclaim dangerous AML sites is resource 
intensive and requires cooperation with local, state, and Federal 
partners. Even dangerous mines that have been properly sealed off are 
sometimes vandalized, entered, and left open. AML sites are also prone 
to erosion and de-stabilization of natural topography due to the 
interruption of natural drainages by mining-related excavation and 
tailing and waste rock placement. Impacts to scenic qualities of 
natural areas also occur at AML sites. There are also other factors 
that merit management attention in AML site assessment and treatment, 
including the historic value of mines, some of which are listed in the 
National Register of Historic Places, and the wildlife habitat value of 
AML sites for species such as bats.
    With this in mind, the goal of programs addressing AML issues in 
the Department is to work to remediate the physical safety hazards, 
such as shafts, adits, and entrances, and environmental threats 
associated with hardrock abandoned mine sites.
U.S. Geological Survey's Work
    At a recent hearing before the Energy and Mineral Resources 
Subcommittee, the USGS testified about its role, since the early 1990s, 
in providing impartial earth and biological science input to the EPA 
and other agencies on Superfund sites and smaller sites appropriate for 
Good Samaritan cleanup and other work associated with abandoned mine 
lands. Related to this issue, it has worked with stakeholders to 
develop detailed watershed-based AML assessment methodologies in 
Colorado's Animas River and Montana's Boulder Creek.
    The USGS has indicated that a continuing challenge to this process 
is accurately estimating the scope of the AML problem across the United 
States and the likelihood for individual mining sites to cause 
potential environmental contamination. The USGS is developing an 
enhanced geospatial database of the mines and mineral deposits of the 
United States known as USMIN, which will capture the locations and 
areal extent of mine features from current and historical USGS 
topographic maps and satellite imagery. When enhanced by the 
integration of information from other national databases on geology, 
mineral resources, hydrology, water quality, soil quality, remote 
sensing, ecology, and climate, the result should help us better 
understand the national scope of AML issues and impacts.
    The USGS has also developed methods to help reconstruct pre-mining 
environmental conditions in these watersheds, because it is neither 
cost effective nor technically feasible to remediate to environmental 
conditions cleaner than were present naturally prior to mining. Other 
work includes----

    <bullet> Interdisciplinary methods to help prioritize which of many 
            AML contamination sources in a watershed could be cleaned 
            up to have the biggest positive impacts;

    <bullet> Linked water quality sampling and flow measurements that 
            have helped pinpoint locations and amounts of specific 
            contaminant influxes into watershed streams;

    <bullet> Field- and lab-based ecotoxicological measurements to help 
            assess the impacts of AML contamination on food webs and 
            aquatic insect populations. Potential human health concerns 
            can be inferred based on the toxic metals and minerals 
            geologically likely to be present in mine wastes, soils, 
            and dusts;

    <bullet> Computer-based models that help predict impacts that 
            remediation of specific sites would have on downstream 
            water quality and aquatic ecosystems, allowing more 
            effective cleanup decisions. The economic and societal 
            value of ecosystem services can be evaluated in AML 
            watersheds, and extraction of valuable or useful metals in 
            mine waste materials may help offset cleanup costs at some 
            sites.

Addressing Priorities
    Due to the abandoned nature of these sites, the public is often 
left with the bill for remediation of legacy abandoned mines, rather 
than the companies and individuals who originally developed the 
resources. The Administration has continued to request funds to address 
this significant problem; the Department prioritizes these activities 
and addresses those priorities within available resources.
    AML sites that are identified by the bureaus as posing significant 
potential human health and environmental risks from exposure to toxic 
metals are addressed using the response authorities established by the 
Comprehensive Environmental Response, Compensation, and Liability Act, 
which have been delegated to the Department by Executive Order. Funding 
for the investigation and cleanup of the Department's highest priority 
CERCLA AML sites is often provided from the Department's ``Central 
Hazardous Materials Fund,'' a Department-wide account that provides 
funding to land-managing bureaus for CERCLA response actions, which 
receives an annual congressional appropriation of approximately $10 
million. The Department uses these funds only for AML sites where the 
bureau has completed a CERCLA Preliminary Assessment and Site 
Inspection and where the responsible bureau is undertaking additional 
response actions using the Department's CERCLA authorities.
    While there are a number of challenges to addressing AML sites on 
public lands, there is both a necessity and a desire to address those 
identified priority sites.
    Since 2012, the Administration has included in its budget requests 
a legislative proposal intended to address the legacy of abandoned 
hardrock mines. The Administration's proposal would hold the hardrock 
mining industry responsible for the remediation of abandoned hardrock 
mines.
    The proposal would levy an AML reclamation fee on uranium and 
metallic mines on both public and private lands, which would be 
assessed on the volume of material displaced after January 1, 2016. The 
receipts would be split between Federal and non-Federal lands, and the 
Secretary would disperse the share of non-Federal funds to each state 
and tribe based on need. States and tribes would select their own 
priority projects using established national criteria.
    The proposed hardrock AML reclamation fee and reclamation program 
would operate in parallel with the existing coal AML reclamation 
program as part of a larger effort to ensure that the most dangerous 
abandoned coal and hardrock AML sites are addressed by the responsible 
industries. With the number of identified sites increasing as 
inventories are improved, we recognize that there is a very large unmet 
need to address this problem.
                               conclusion
    It is unfortunate that the catalyst to address a problem is often 
an incident like this. The Department stands ready to work with the 
committee and Congress to address the issue in a meaningful way. Thank 
you and I am happy to response to any questions that you might have.

                                 ______
                                 

   Questions Submitted for the Record to the Honorable Sally Jewell, 
                       Secretary of the Interior

The Honorable Sally Jewell did not submit responses to the Committee by 
the appropriate deadline for inclusion in the printed record.

               Questions Submitted by Chairman Rob Bishop

    Question 1. What is the factual or documentary basis for the Bureau 
of Reclamation's (BOR) assertion that portions of the pipes that the 
Colorado Division of Reclamation, Mining and Safety (DRMS) installed in 
2009 were excavated and removed in 2014?

    Question 2. What is the basis for BOR's assertion that the 
Environmental Protection Agency's (EPA) plan was to insert a stinger 
and use a pump to drain water impounded in the mine (i.e., was this 
information communicated verbally by an EPA employee/contractor, or was 
it contained in a specific document that BOR reviewed)? If this 
information came from a specific document, which document?

    Question 3. Did BOR interview all of the individuals on site on 
August 5, 2015? If not, please explain why BOR did not conduct 
interviews with each individual who witnessed the blowout?

    Question 4. Were the authors of the BOR report aware that the image 
shown in Figure 39 was drawn on August 11, 2015 (after the spill)? If 
so, why did they not include this important information in the report?

    Question 5. Why did BOR omit the affiliation of the BOR peer 
reviewer on the cover and only list the affiliations of the other two 
peer reviewers on page 3 (PDF) of the report?

    Question 6. Was DOI aware that there was no pump and stinger at the 
Gold King Mine site before it produced its report? If so, why was this 
not mentioned in the report?

    Question 7. Did BOR receive maps or photographs from DRMS or EPA 
showing or depicting the DRMS work done at the Gold King Mine in 2009, 
other than what is cited in the Technical Review?

           Question Submitted by Representative Dan Newhouse
    Question 1. Do you think having a Bureau of Reclamation (BOR) 
employee--who is a subordinate of the BOR evaluation team members--peer 
review his bosses' report makes for a very robust peer review process?

                                 ______
                                 

    The Chairman. Thank you. I appreciate that. Now we will get 
to the question phase of this, with the Committee Rules--there 
is a 5-minute rule that goes along with it.
    I am going to break tradition, and I actually am going to 
do the first set of questions myself. I apologize, but I think 
other Members in this committee are going to have some 
specific-ish questions that deal with portions of this report. 
My job is going to be very technical here, so we are going to 
go through some of the minutiae, the technicality, if I could. 
So, I am ready to start.
    Ms. Jewell, you received a letter on September 3 from me, 
but it took over a month to respond to that letter. Your 
initial response did not include any of the documents the 
committee asked for. You waited to deliver about 3,600 pages 
literally 1 day before this hearing. Of those, over 300 of them 
were that--that is one of the pages you gave us, everything was 
redacted in the entire page. Those documents produced still do 
not include some of the specific documents that the committee 
requested.
    [Slide.]
    The Chairman. So, I am going to give you a compound 
question. Number one, why did the Department delay the delivery 
of these documents for so many months, especially when EPA and 
EPA's contractors provided us with more information than DOI 
has, and they did it in less time? Why are so many of these 
documents redacted like this? Why are you even giving us that 
kind of stuff?
    In addition to that, I want to compound that with the other 
question that both EPA and DOI determined that BLM would be 
excluded as an author or reviewer from this project, because it 
was a potentially responsible party under CERCLA. How exactly 
is the Department of the Interior, that is ultimately 
responsible for BLM and its liabilities, independent enough to 
conduct this review?
    So, why did it take so long? Why are so many redacted? How 
can you actually be considered as independent? Ms. Jewell?
    Secretary Jewell. Congressman, we will continue to produce 
all appropriate material. We have limited resources. There are 
a lot of things to review. We do that in a thoughtful way, and 
we get them to the committee as fast as we can with the 
resources that we have.
    The Chairman. Ms. Jewell, let me----
    Secretary Jewell. Why is it redacted?
    The Chairman [continuing]. Push back on that. We have 
talked about this before. They are not coming in a timely 
review. EPA was faster than you, their contractors were faster 
than you. Why are they faster than you?
    Secretary Jewell. I have no idea what resources EPA has to 
allocate to this process. I do know what we have; and our 
people work very hard, and they respond as quickly as they 
can----
    The Chairman. Ain't good enough.
    Secretary Jewell [continuing]. With the amount of requests 
that they have.
    The Chairman. Thank you.
    Secretary Jewell. In terms of why redacted, what you were 
given is everything related to the Gold King Mine spill. I 
receive weekly reports from the Department that are lengthy. I 
receive daily reports on emergency operations. These reports 
may or may not have anything related to the Gold King Mine 
spill. So, you may get 50 pages of documents of which only one 
or two paragraphs relate to the Gold King Mine spill.
    As a subset of a document, that is why you would get a lot 
of pages that did not have any information showing, because 
none of it related to the Gold King Mine spill.
    The Chairman. We would actually like to be part of the 
decisionmaking process of whether that has--look, you can save 
a couple of forests by not giving us black pages.
    The Bureau of Reclamation was not only involved in the 
report it produced, but it was also directly involved in the 
project before the blowout took place. The Bureau of 
Reclamation, including the report's lead author, was consulting 
at the Gold King Mine project, and helped fund it. Why was the 
potential liability enough to create a conflict for BLM when 
they could not be part of it, but actual involvement was not 
enough to create a conflict of interest for the Bureau of 
Reclamation?
    Secretary Jewell. I am not aware of any discussions with 
regard to BLM. I am aware that the EPA wanted to get to the 
bottom of what happened, technically, at the mine; and they 
looked for people with that expertise.
    The work of the Technical Service Center is very broad. A 
tiny fraction of that, about a half percent or so, is done for 
the EPA. The individual that was contacted by the EPA as an 
expert in these areas has worked in the private sector in the 
mining industry; and he has worked in the public sector, 
including for the now no longer functioning U.S. Bureau of 
Mines. The EPA contacted him because he has technical expertise 
in this area.
    The Chairman. OK. Well, then----
    Secretary Jewell. He consulted on the Red and Bonita Mine--
--
    The Chairman. Then let me go to the source of it. BOR 
signed a contract with the EPA to provide technical assistance 
for the cleanup just days after BOR signed another contract to 
lead the so-called independent investigation. So, BOR went from 
being a technical consultant to an investigator, then back to a 
technical consultant in a matter of days.
    How can you claim that this report is even remotely 
independent, when the lead author was working with EPA, and has 
been doing so for some time before he started his 
investigation?
    Secretary Jewell. Congressman, there are 30 seconds left, 
so I am going to turn to my colleague, David Palumbo, who 
oversees the Technical Service Center, to provide as quick an 
answer as we can within the time remaining.
    Mr. Palumbo. Thank you, Secretary. Thank you, Chairman. I 
would just like to clarify. The work that the Technical Service 
Center was doing was on the Red and Bonita Mine, as the 
Secretary indicated. There was no work, there was no contract 
for activities related to Gold King Mine until after the 
incident.
    The Chairman. All right. First, technically, I had 33 
seconds, so I did not break the rule. Also, I am going to 
challenge that statement later on.
    With that, let me go on. Since I am now out of time, let me 
go on to Mr. Grijalva.
    Mr. Grijalva. Thank you, Mr. Chairman.
    Madam Secretary, part of the issue today is responsibility 
in the first place. It was the mining industry that mined under 
the mountains initially, it was the mining industry--that 
tunnel--so we had that backup that occurred in parts of the 
mountain. So, we can't let this hearing get away from the 
responsibility in the first place.
    Let me just ask you a couple of questions. How much acid 
mine drainage was being released by this mine system into the 
Animas River watershed before EPA started doing any work on the 
Gold King Mine this year?
    Secretary Jewell. The numbers that I have heard are 330 
million gallons of toxic mine drainage every year out of this 
region and into the Animas River watershed.
    Mr. Grijalva. And on the August 5 release at Gold King 
Mine, how much was released by EPA's activities at that point?
    Secretary Jewell. The USGS has measured the flow at 
approximately 3 million gallons on the day of August 5, and 
that was when the surge came through. Since then, it has 
returned to a more stable level. So, 3 million gallons.
    Mr. Grijalva. Have there been other large releases of water 
from these mines into the watershed in the past?
    Secretary Jewell. Yes, there have. As I read the technical 
report, it identifies several of them--the largest of which was 
actually the inadvertent draining of a lake, which was 
something like several hundred million gallons.
    Mr. Grijalva. And, were there any Federal agencies 
responsible for either that incident or other incidents that 
have occurred in the past?
    Secretary Jewell. Not to my knowledge. The incidents 
occurred as a result of the mining industry's activities.
    Mr. Grijalva. Do we have any estimates on the total amount 
of acid mine drainage that is seeping into America's streams 
and rivers from the estimated number of abandoned mines?
    Secretary Jewell. We have not estimated the amount of 
spillage. In this small area alone, there are about 400 mines 
in the Animas River watershed, 330 million gallons. We estimate 
on BLM lands alone there are 100,000 abandoned mines. The state 
of Colorado has 23,000. I think that it is fair to say that it 
is a significant multiple of that amount, but I do not have an 
estimate.
    Mr. Grijalva. And not even knowing the total number kind of 
makes that numerical conclusion difficult.
    Secretary Jewell. Correct.
    Mr. Grijalva. I just want to say that I asked the committee 
staff to do an analysis of some of the proposals the Majority 
will be bringing forth. The bills are being proposed. In one, 
it would freeze the Bureau of Land Management's abandoned mine 
program at $17 million a year, and provide up to $15 million in 
matching funds from donors. I am not sure we will get $15 
million in donations; but, for the sake of argument, let's 
assume that we do. So, that bill would come up to $30 million.
    At that rate, it would take over 560 years to clean up just 
the abandoned mines that we know about on BLM and Forest 
Service lands. Again, that is just what we know about. As you 
pointed out, there are a lot we do not know about; so, the 
timeline could actually be a lot longer.
    If we implement the proposals in the legislation that our 
side of the aisle have proposed, and the President's budget, as 
well as make the polluters pay for that legacy, we shorten the 
time by 500 years. I still think 53 years is an awful long 
time, but a lot better than 560.
    I think if we continue to focus on not dealing with the 
overarching issue, which is abandoned mines, their consequence 
to not only the environment but to public health, the danger 
they pose, and not look at the funding mechanism that will 
begin to pragmatically and programmatically deal with the 
reclamation and remediation of those mines, we continue to 
completely miss the point.
    With that, Mr. Chairman, I have no further questions. I 
yield back.
    The Chairman. Mr. Young.
    Mr. Young. Thank you, Mr. Chairman, and thanks for holding 
this hearing.
    Secretary, what did you have, as far as assets and 
technical assistance, in the Department to make available to 
the Navajo Nation and the Southern Ute Indian Tribe immediately 
after the blowout and in the intervening months? What did you 
have, and how did you handle it?
    Secretary Jewell. To just provide a quick summary, we were 
in contact with the Navajo Nation on August 6, which was the 
day after the spill. We mobilized to understand what the issues 
were. The Fish and Wildlife Service started working on what 
were the impacts to the wildlife, the U.S. Geological Survey 
began immediate work on stream gauges and measuring the water 
flow, the Bureau of Reclamation released additional water from 
the Navajo Reservoir to dilute the flow; and we worked every 
step of the way with the Navajo Nation.
    We are concerned about water quality. We did water quality 
testing in the area, including at schools that were about to 
open. We set up an Incident Management Team and an Incident 
Management Center; and throughout the spill response, we 
basically made sure that they had sufficient resources for 
their livestock and other animals.
    Mr. Young. What I am leading up to, you know, the Navajo 
Nation and the Southern Ute Tribes are really sophisticated. 
Their tribes have gone a long ways. I am going to be 
introducing legislation--I am sure with other people--that, 
because of their expertise in environmental protection 
themselves, I would like to have a bill that would allow them 
to contract that work--not the EPA and not yourself. You would 
be the auditors of what is going to be proposed.
    If that were the case, what would be the position of your 
Department?
    Secretary Jewell. I would say, overall, we are very much in 
support of contracting services to tribes when they are capable 
of providing those services; and we certainly have some 
sophistication in the tribes you referenced. So, yes----
    Mr. Young. I will guarantee you that we will give you the 
specifics of what will happen, because I have noticed the 
agencies themselves have reluctance to let those people 
directly affected, when they have the expertise, do the work. I 
am terribly disappointed in your Department in a lot of areas 
in my state and, of course, with the EPA overall.
    This is going to come down the pike, so I want you to 
consider it. If they cannot do the job, they do not get the 
job. If they get the job, then you ought to be able to say, 
``This is the law, they are going to have the job to do the 
cleanup.'' And it goes back for all your mines. There is no 
reason why you cannot have the areas that are directly 
affected.
    What was your immediate contact with EPA? Did they contact 
you, or did you contact them?
    Secretary Jewell. Let's see. My understanding is that our 
first notification came from the Colorado Department of Public 
Health and Environment, through their spills tracking data 
system. The same day, our Office of Environmental Compliance 
and Policy in Denver was notified of the spill by EPA's 
National Response Center, all on the day of the spill.
    Mr. Young. Is there any of this, ``It is my job, it is not 
my job, it is your job, it is your fault, it is not my fault,'' 
between the two agencies?
    Secretary Jewell. I have not seen that at all. I have seen 
nothing but cooperation in trying to deal with the issues on 
the ground and be responsive to the circumstances on the 
ground.
    Mr. Young. Who do you have on the ground now from the 
Department or EPA auditing this program?
    Secretary Jewell. Well, we did not have anybody at the Gold 
King Mine site, but we have----
    Mr. Young. Now.
    Secretary Jewell. Well, we did not at the time. We have 
since visited the site, but we do not have anybody on the 
ground at the site that I am aware of.
    Mr. Young. Is there anybody on the ground from either one 
of the agencies?
    Secretary Jewell. EPA is responsible for the site, and they 
are on the----
    Mr. Young. Are they there?
    Secretary Jewell. I don't know. I assume so.
    Mr. Young. Well, my point is that you are in charge, as 
Secretary of the BIA. The BIA is in charge of the reservation. 
Is that correct?
    Secretary Jewell. I am sorry, I thought you were talking 
about the Gold King Mine site. Are you speaking about the 
reservation itself?
    Mr. Young. What is the effect upon the reservation land and 
the water that those people are consuming? Are you bird-dogging 
or is it just EPA?
    Secretary Jewell. No, we are working with the tribe, and 
the tribe's environmental protection organization on monitoring 
of water quality. They have said, ``This has opened our eyes to 
the risk; we would like assistance in monitoring the amount of 
heavy metals in the soil.''
    So we are, through BIA, continuing to work with the tribe, 
and will continue to do that for as long as they like.
    Mr. Young. We will check that with the tribe, to see what 
results we are having from it.
    Secretary Jewell. Great.
    Mr. Young. It is your responsibility. My basic complaint 
about the Department all this time--you have Bureau of Mines, 
da da da da da, and right at the very bottom is BIA, the last 
one to be heard from. They should be the lead agency of this, 
because of the standard of the Navajo and the Utes; and you 
ought to be aggressive about this, not them.
    Secretary Jewell. Congressman Young----
    Mr. Young. Yes?
    Secretary Jewell [continuing]. With all due respect, I 
think our actions have shown that we take our responsibilities 
to tribes very seriously. My personal meetings with the Navajo 
leadership, and our deputy, Mike Connor's, personal meetings, 
have shown that they have been very appreciative of our 
response. We will continue those very high levels.
    Mr. Young. All due respects, I can tell you this is not a 
new unit, not a new agency. And I think you have done a lousy 
job, because they are at the bottom of the list.
    The Chairman. OK, thank you.
    Mr. Sablan, you are recognized. Oh. OK, let's yield to Ms. 
Tsongas, then. Thank you.
    Ms. Tsongas. Thank you, Mr. Chairman, and thank you, Mr. 
Sablan. Welcome, Secretary Jewell. It is so good to have you 
here.
    After the spill of the Gold King Mine, the entire Nation--I 
think all of us--saw appalling images of the river running 
yellow, as nearby counties and Native American tribes declared 
states of emergency for local residents, and rightfully so.
    As I mentioned at our previous hearing on this accident 
with EPA Administrator McCarthy, I happen to come from a 
district that is rooted in the Industrial Revolution, where 
rivers used to run different colors, depending on the dye that 
was cast into them at the end of the manufacturing day.
    As a Nation, we have come a long way in deciding that this 
is no longer acceptable, and have made bipartisan commitments 
to protecting the health of our rivers, for they are directly 
tied to the overall health of our communities. It was great to 
have you come to my district to celebrate our Rivers Day and 
the new role that they play, the very important role they play, 
in our district.
    The Gold King Mine spill into the Animas River, and the 
possible negligence by EPA contractors, certainly merits--and 
did merit--an investigation and attention from this committee. 
But one of the most stunning aspects of this accident, and the 
subsequent investigations by both the EPA and the Bureau of 
Reclamation, is that it has exposed just how far behind we are 
when it comes to environmental cleanups of old, hardrock mines, 
abandoned by their private owners when they were no longer 
profitable.
    The Gold King Mine in Colorado has been closed for 90 
years, yet this mine and others in the area have been polluting 
the Animas River at the rate of approximately--as you 
reaffirmed in your testimony--330 million gallons of polluted 
wastewater a year. That is 100 times more pollution going into 
the river than the August 5 spill, and the reason that the EPA 
was working at the site in the first place.
    BLM estimates that there are 93,000 abandoned mines in 
California, Nevada, and Utah, and another 23,000 abandoned 
mines in Colorado, where the most recent spill took place. 
There are approximately 161,000 across the entire western 
United States and Alaska, and some estimate a number as high as 
500,000. Yet despite these numbers, there is no dedicated 
funding source for environmental cleanups of hardrock mines.
    I am a co-sponsor of Representative Grijalva's legislation. 
It would bring the 1872 mining law into the modern age, 
requiring companies to pay royalties to the American taxpayers 
for metals extracted from our public lands and creating a much-
needed funding source for cleanups of old and abandoned 
hardrock mines. This is an important reform, and it creates an 
opportunity to address this long-neglected issue; but until 
then, we have to deal with the world as it is.
    As I have just mentioned, we have hundreds of thousands of 
abandoned mines across our Nation. Many of them are on public 
lands, which are depended on by Americans for recreation, 
tourism, clean drinking water and, for many people, a source of 
their economic livelihoods.
    You referenced it in your testimony, but can you describe 
the environmental threat that abandoned hardrock mines pose to 
our public lands, and give us a little more detail on how they 
affect our national parks?
    Secretary Jewell. Thank you for the question, and for 
recognizing the extent of this problem.
    National Parks, in particular, did a very thorough study 
that was published in 2014. They estimated that they had 
something like 37,000 abandoned mine features, with about 3,800 
that required remediation. Because of their smaller footprint, 
we were able to do the assessment. They estimated that the 
cleanup of those 3,800 sites alone would cost about $141 
million over 12 years.
    The BLM has not had the financial capacity to do a full 
assessment or inventory. They estimate, just in the states of 
California, Nevada, and Utah alone, it would cost about $212 
million to inventory those sites. They have identified 50,000 
sites. As I mentioned, they have another 5,400 that they are 
identifying each year. There have been estimates of roughly 
100,000 sites, but those are just estimates. We really don't 
know, because we have not had the capacity or the funding to do 
an inventory.
    Ms. Tsongas. Can you talk about the number of park units 
that have been impacted? And give some examples of particular 
parks.
    Secretary Jewell. Yes, there are, I think, in those 3,800 
that need remediation, about 76 units.
    An example--there is a large mine site--I cannot remember 
the name of it--up in Alaska, in Wrangell-St. Elias. There are 
lots of sites where our biggest issue is drownings.
    Sorry, OK.
    The Chairman. Thank you.
    Ms. Tsongas. Thank you.
    The Chairman. Mr. Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman. And thank you, 
Secretary Jewell, for being here today.
    Before I give my questions, I would like to play a quick 
clip from our last hearing on the Animas spill.
    [Video shown and submitted to be part of the hearing 
record.]
    Mr. Gohmert. Thank you. Secretary Jewell, we have gotten 
some emails and some information, and we have an EPA/BOR 
Superfund program work authorization dated August 20, 2015. And 
there is nowhere that the things EPA Administrator McCarthy 
testified on here were going to be investigated.
    So, I am curious. Before that last hearing we had on 
September 17, did you or anyone in your Department advise EPA 
Administrator McCarthy that the scope of the investigation 
would not look into criminality, intentional gross negligence, 
or anything of those matters?
    Secretary Jewell. Congressman, what I do know is the facts 
that are in the record, that we signed a work authorization 
form. I will turn it over to David to explain what was in that. 
It was specifically a technical review; that is what we agreed 
to do.
    I think it is fair to say that it is informing the ongoing 
investigative work that EPA is conducting. Our reviewers, our 
engineers are doing technical----
    Mr. Gohmert. That is non-responsive to my question.
    Secretary Jewell. They are not----
    Mr. Gohmert. I asked you if you, or anyone in your 
Department, advised her that the investigation did not include 
looking for whether there was criminality, gross negligence, or 
intentional violations. I do not need anyone here to tell me 
what is in the authorization that I have a copy of. That is not 
my question.
    You had the power to gather this information that EPA 
Administrator McCarthy testified was being gathered. It was not 
being requested, it was not being gathered. You knew before the 
September 17 hearing that we wanted you to testify. You knew 
you had the power to get the information that Administrator 
McCarthy said was going to be gathered.
    So, did you instruct anyone at all in your Department to 
investigate whether or not there was any criminal misconduct, 
intentional or negligent disregard, or wanton negligence out 
there at the Animas Mine?
    Secretary Jewell. Congressman, my Department does not have 
the authority to conduct those investigations. I did not have a 
conversation with Administrator McCarthy about----
    Mr. Gohmert. You are testifying----
    Secretary Jewell. Let me finish----
    Mr. Gohmert [continuing]. Before this committee that you do 
not have the power to see if one of your employees acted 
negligently? You do not have that power? That is your 
testimony?
    Secretary Jewell. Mr. Gohmert, I do not have the power 
within Interior to investigate employees within EPA. The 
Inspector General within EPA would have that authority; but the 
Department of the Interior does not have the authority to look 
at criminal or individual investigations. Our investigation was 
strictly technical in nature, and consistent with the work 
authorization that we did with EPA.
    Mr. Gohmert. The bottom line, Secretary, is that, once 
again, though your Department is good at holding individual 
Americans accountable, no one is being held accountable for 
this disaster.
    Mr. Chairman, as a former judge, I know the doctrine of 
spoliation is basically an exception to the hearsay rule. We 
are very careful we do not let anything that is non-reliable 
evidence before a fact-finder. That doctrine is sound. I would 
advise the fact-finder in this matter that the Department of 
the Interior has the information within their grasp, and they 
have repeatedly refused to provide it. Therefore, you may take 
that as evidence that this Department was either negligent, 
grossly negligent, or intentionally violated the law.
    I yield back.
    The Chairman. Thank you.
    Mr. Beyer.
    Mr. Beyer. Thank you, Mr. Chairman, very much.
    Madam Secretary, the Chairman, in his opening statement, 
said that the BOR should never have been assigned this task 
because Mike Gobla, who worked for BOR, was going to be on a 
consulting team scheduled for the week or two after, and that 
compromised BOR. How do you respond to that?
    Secretary Jewell. I think I will turn that over to David 
Palumbo, because he is a technical expert and works with Mr. 
Gobla.
    Go ahead, David.
    Mr. Palumbo. Thank you, Secretary.
    Thank you, Congressman. I do not believe, in this case, 
there was a conflict of interest. Mr. Gobla was contacted on 
July 23 regarding a site visit scheduled for August 14. The 
incident occurred on August 5. Mr. Gobla did make the trip on 
August 14, and also subsequent to August 14, to conduct 
activities related to: one, helping stabilize the mine portal, 
and two, as part of the independent technical investigation.
    Mike Gobla and other members of the Technical Service 
Center, as well as the peer reviewers, have a high standard of 
ethics. They have professional conduct requirements that they 
adhere to. They are licensed professional engineers, 
professional geologists, and PhDs. I believe they acted 
independently, with integrity, and without compromise.
    Mr. Beyer. And, really, there is no way that Mr. Gobla was 
involved in the actual spill at all.
    Mr. Palumbo. No, he was not involved with the spill.
    Mr. Beyer. OK, great. Madam Secretary, the Chair also 
characterized this as a disaster, which I very much respect. 
One of the things I have seen--by August 9, 4 days later, the 
levels of metal and sediment from the Silverton area had 
returned to levels prior to the August 5 spill; the water 
quality in the San Juan River and the Navajo Nation had 
returned to pre-event levels by August 15; and the Animas and 
San Juan Rivers had lifted restrictions on irrigation, 
livestock, and recreation. EPA expects no adverse health 
effects and the risk to livestock is low.
    Were there any deaths to people or livestock? Were there 
any illnesses that we know about?
    Secretary Jewell. Not that I am aware of, no. None.
    Mr. Beyer. Any sense of the economic loss, agriculture----
    Secretary Jewell. I do know, from speaking with the Navajo 
Nation, that they chose to not use the water for irrigating 
crops, and they believe they have losses there that they are 
pursuing a claims process with the EPA. But no livestock was 
lost. The livestock water that we provided through the BIA, and 
the subsequent use of their water, resulted in no losses that I 
am aware of to livestock.
    Mr. Beyer. Yes. I mean the pictures are horrible, and I do 
not want to minimize the disaster effect. We also want to put 
it in perspective.
    Secretary Jewell. Thank you.
    Mr. Beyer. We just looked at the EPA's internal report, 
which we just got this morning. They talked about the two on-
site coordinators on pages 3 and 4, and how the one guy who was 
responsible had gone on vacation, and had directed, ``The other 
person''--name redacted--``the EPA contractors, DRMS staff, not 
to proceed with any work on actually opening the adit until his 
return after a planned vacation.''
    On page 4, it then goes on to talk about how they were 
scraping away all the loose soil near the face of the adit, 
with the initial goal of locating the primary blockage. With 
the consultation of DRMS, they were doing additional excavation 
to identify the location of the bedrock. They were able to 
locate the bedrock. Then they started to go home, and were 
doing the final cleanup work, when the team noticed a water 
spout a couple of feet high in the air.
    So, they were not attempting to open the adit when the 
thing happened at all. It looks like, from the internal review, 
that they were respecting the advice of the leader, who was on 
vacation.
    Is there anything in there that suggests criminal activity?
    Secretary Jewell. I do not believe there is anything in 
there that suggests criminal activity. The spill was clearly 
unintentional, from everything we have looked at, and from all 
the information that has subsequently come out.
    Mr. Beyer. Is there anything that suggests gross 
negligence?
    Secretary Jewell. I think that that is for others to 
determine. The facts are on the table; I think they are very 
clear. These are unknown circumstances. It certainly did not 
look like there was any intent, other than to clean up an 
abandoned mine land site, which had risks that were identified; 
and the judgments taken resulted in a spill. Certainly, there 
was no indication in anything that I have seen that would 
suggest anything was intentional.
    Mr. Beyer. One of the most interesting engineering 
subtleties in here was that the assumptions were made that a 
lot of this was clay, which has a much higher ceiling impact. 
Actually, it was a lot of fallen metals and stone. Those are 
much more porous, which resulted in water levels double what 
they had anticipated. But, it is difficult to take that to 
negligence.
    So thank you very much. Mr. Chair, I yield back.
    The Chairman. Thank you, Mr. Beyer. I also appreciate the 
first question you asked.
    Mr. Palumbo, I am coming back for another round. That is 
the crux of the question. You gave me a different answer than 
you gave him, so you can be thinking of your third response to 
it eventually.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Secretary Jewell, thanks for being here. There are two 
things that the American people want from Federal agencies. 
They want accountability and they want transparency. So let's 
look at those two things.
    On accountability, has anyone at any agency been fired for 
this environmental disaster?
    Secretary Jewell. Not that I am aware of.
    Mr. Lamborn. OK. Has any Federal agency been fined for this 
environmental disaster?
    Secretary Jewell. Not that I am aware of.
    Mr. Lamborn. So much for accountability, let's talk about 
transparency.
    The water pressure at the nearby Red and Bonita Mine was 
tested prior to work being conducted, but not at the Gold King 
Mine. Why did your report fail to address EPA's decision to 
proceed on work at the Gold King Mine without testing the 
pressure like they did at the Red and Bonita Mine?
    Secretary Jewell. David, I think I will go ahead and let 
you answer that, because it is technical.
    Mr. Palumbo. Sure. Thank you, Congressman. I believe our 
report is clear that if EPA, DRMS, or its contractor would have 
done vertical drilling as they did in the Red and Bonita Mine, 
that direct verification of pressure or no pressure, this 
incident would not have occurred.
    Mr. Lamborn. Exactly. Why wasn't it done? That is my point, 
why didn't the report go into that?
    Mr. Palumbo. I think the report clearly identifies that it 
should have been done. And if it were done, we would not have 
had the situation that occurred on August 5.
    Mr. Lamborn. OK. You say in the abstract it should have 
been done. Why didn't it get to the bottom of why the EPA did 
not do that.
    Secretary Jewell. Congressman, if I can jump in here, the--
--
    Mr. Lamborn. Who made the mistake? Who didn't call for it?
    Secretary Jewell. EPA had requested a consultation by Mr. 
Gobla, who provided the expertise and the suggestions in the 
Red and Bonita Mine. That was scheduled for August 14. They 
were doing preparation work on the site, clearly without an 
intent to do a spill. That is when the spill occurred. Had he 
done the consultation, he may have provided advice that would 
have prevented the spill; but the prep work on the site 
resulted in the release.
    Mr. Lamborn. OK, OK. Let me talk about a related issue. One 
of your peer reviewers, an expert employed by the Army Corps of 
Engineers, protested that the DOI report, your report, failed 
to explain the decisions that led to the disaster.
    He further stated that, ``The report should describe what 
happened internal within EPA that resulted in the path forward 
and eventually caused the failure.'' Why didn't the report 
state what went wrong with the EPA?
    Secretary Jewell. David?
    Mr. Palumbo. Sure. Again, as Secretary Jewell indicated 
earlier, our scope of work was related to looking at a 
technical root cause analysis based on our geotechnical 
engineering expertise. We did not have the authority to compel 
another agency to provide documents. We do not have the 
investigative tools to perform that analysis. So we strictly 
focused on the technical merits of the review.
    With respect to the peer reviewers, I----
    Mr. Lamborn. OK, let's go right there. So, you are letting 
the EPA get off scot-free, it sounds like. They are not being 
held accountable, and there is definitely not even a lot of 
transparency. But, when you want to hold someone accountable, 
you throw a state agency under the bus.
    DOI claims that in the hours leading up to the blowout, two 
DRMS--that is the Colorado agency--employees visited the site 
to view conditions and were in agreement with the EPA on 
continuing excavating. Two DRMS employees did go there, but 
they said there was no such agreement; and they wrote the EPA, 
saying that was the case. There was no such agreement. They 
were only there to consult with the EPA about future 
underground mine work at the Gold King Mine. It had nothing to 
do with excavation taking place by EPA and/or its contractor 
that morning. No one at DRMS directed any work at Gold King 
Mine, nor did any DRMS personnel approve or disapprove any of 
the work that EPA was conducting there.
    So, you say that you are not finding blame, but you 
certainly seem to be able to find a way to blame a state 
agency, which was just kind of an innocent bystander. Isn't 
that correct?
    Mr. Palumbo. Our report captures the discussions that 
occurred after the event, when we went out to speak with those 
parties that were involved: DRMS, the contractor, EPA. We stand 
by the report that we published, that there was consultation 
amongst those three parties, there was discussion amongst those 
three parties, there was agreement amongst those three parties; 
that is why we captured the language we did in our report.
    Mr. Lamborn. Well, I don't see conspiracy, I see shifting 
blame to other people. I yield back, Mr. Chairman.
    The Chairman. Mrs. Dingell.
    Mrs. Dingell. Thank you, Mr. Chairman; and I thank you for 
holding this hearing. It is important, and I guess I am in a 
mood to say, ``OK, it is the holiday time, so let's work 
together so we make sure that this never happens again.'' I 
thank my friend, Secretary Jewell, for coming today, knowing 
that this was probably not going to be her most pleasant 
morning of the holiday season.
    But having said that, the Gold King Mine spill is extremely 
concerning, and it is a real tragedy. Our thoughts and prayers 
continue to go out to those who were impacted by the spill. But 
I believe that, as a committee, we need to focus on what the 
root causes of the problem are, and how we fix it moving 
forward, and prevent it from happening again.
    We need to make sure that the government agencies, whether 
it is the EPA or an agency at the Interior Department, have the 
resources that they need and the authority that they require to 
make sure that we are properly cleaning up abandoned mines, so 
that tragedies like this do not happen again. It is the right 
thing to do for our economy and for the environment. So, I hope 
that we are all going to work together on both sides of the 
aisle to move forward on that.
    Secretary Jewell, your testimony mentions that the 
conditions and actions that led to this spill are not unique. I 
would agree with that assessment, that even Michigan, which is 
not traditionally thought of as a state with mines, has some. 
So, let me ask you about something we have been working on in 
our subcommittee, and I think is a real problem that we do 
have.
    One of the reasons that there are so many more abandoned 
hardrock mines than there are coal mines is because there are 
requirements for coal companies to post bonds to cover cleanup 
costs in the event that they go bankrupt. But the biggest coal 
companies are allowed to avoid posting bonds if they show that 
they are effectively too big to fail. So how often do we keep 
hearing that, ``too big to fail'' ?
    As with most things that are labeled too big to fail, many 
of these companies are now failing, and they are descending 
into bankruptcy. That leaves the taxpayers on the hook for 
billions of dollars. We raised this issue in May at our 
subcommittee level as a textbook case of the taxpayer exposure 
to polluter cleanup costs that the Majority was focused on in 
that hearing. The coal self-bonding case could result in 
leaving taxpayers on the hook for orders of magnitude of more 
money than clean energy bonding that they were focused on. They 
were invited to join in the investigation. Silence was their 
answer, and I think that that answer is telling.
    Secretary Jewell, a Reuters article yesterday said that 
there was some concern in the Administration about the exposure 
to taxpayers from coal self-bonding. Can you tell us about 
those concerns and the Administration's plans?
    Secretary Jewell. Sure. Just to be clear, the self-bonding 
that you are referring to is in the coal mining industry. There 
are concerns. There has been a large bankruptcy recently. In 
many states, the states have primacy for the regulation on the 
coal mining activities, particularly true in Congresswoman 
Lummis' state of Wyoming. We work closely with the states, and 
must continue to work closely with the states on the self-
bonding issues.
    There is no question that, with the increased financial 
fragility of many coal mining companies, if they are self-
bonded, that does potentially leave the states and the 
taxpayers at risk; and it is something that we would welcome an 
opportunity to work with this committee on, as my colleague, 
Janna Schneider, has been doing with our Office of Surface 
Mining Reclamation and Enforcement. It is a big issue.
    Mrs. Dingell. I do not have a lot of time left, so let me 
ask you. You agree that this is a problem not just impacting 
the western states, but, rather, the entire Nation. Given that 
the circumstances that led to the Animas River spill are not 
unique, how many other sites are you worried about that a 
similar incident could occur?
    Secretary Jewell. The honest answer is we know we have 
likely more than 100,000 sites on public lands alone, and we 
don't know because we have not yet had an opportunity to 
inventory the amount of risk that may be present. We do know, 
just in this Animas River alone, there are 400 sites; and we do 
know that there is consistent water buildup, and a consistent 
leakage of that water into the watershed--330 million gallons a 
year.
    There are other watersheds the USGS has done work on that 
have indicated similar problems. And actually, unlike the coal 
industry, there is no similar mechanism to pay for cleanup in 
the hardrock mining industry; so, it is even worse than what 
you described with coal.
    Mrs. Dingell. I have more questions, but I will yield back 
those 4 seconds I have, Mr. Chairman.
    The Chairman. If you want two more, I will give them to 
you.
    Mrs. Dingell. That is OK. There are a lot of issues here.
    The Chairman. OK. Mr. Fleming, before you go to the dark 
side.
    [Laughter.]
    Dr. Fleming. Thank you, Mr. Chairman. Yes, Madam Secretary, 
the Administration has been widely criticized for failing to 
respond to the incident in a prompt and responsible manner. 
This includes having Administration officials visit the 
impacted areas--and effectively work to rectify the situation 
whenever possible.
    Of course, we are well aware that the Department of the 
Interior is very aggressive about going after the private 
sector whenever the least little thing goes wrong. In fact, in 
contrast to the Deepwater Horizon oil spill in 2010, then-
Interior Secretary Salazar offered the full extent of DOI 
assistance and personally visited the Gulf at least seven times 
in the 5 weeks following the spill.
    So, my question to you, Madam Secretary--how many times did 
you visit the western states in the weeks following the 
release?
    Secretary Jewell. Well, let me begin, Congressman, by 
saying that the Deepwater Horizon spill killed 11 people, it 
was in the waters of the Gulf of Mexico.
    Dr. Fleming. You are answering a question I didn't ask.
    Secretary Jewell. So we----
    Dr. Fleming. Just please answer my question, Madam 
Secretary.
    Secretary Jewell. We had primary responsibility, as a 
regulator in the Gulf of Mexico. EPA had responsibility here.
    Dr. Fleming. I only have 3 minutes and 50 seconds. Please 
answer the question. How many times did you visit the western 
states?
    Secretary Jewell. I do not have a list of how many times I 
visited the western states, but I certainly would----
    Dr. Fleming. In response to this spill.
    Secretary Jewell. May I answer any of this?
    Dr. Fleming. Well, you are not giving me an answer.
    Secretary Jewell. Mike Connor has been to the actual site 
of the Gold King Mine----
    Dr. Fleming. I did not ask about Mike, I asked about you, 
Madam Secretary.
    Secretary Jewell. My visit relevant to the Gold King Mine 
spill was----
    Dr. Fleming. You did not visit. All right, let me move on.
    Secretary Jewell. I visited with the Vice President of the 
Navajo Nation on November 18.
    Dr. Fleming. You are not being responsive to the question, 
Madam Secretary.
    Secretary Jewell. Mr. Chairman, I am not being given a 
chance to answer.
    Dr. Fleming. Mr. Chairman, I will appeal to you. Will you 
direct Madam Secretary to answer my question?
    The Chairman. Look, it is your time. Answer as directly as 
you can. Go for it.
    Dr. Fleming. OK. How many times did you visit the impacted 
areas of Colorado, New Mexico, and Utah in the weeks following 
the blowout?
    Secretary Jewell. My closest visit was in November to the 
Navajo Nation in Arizona.
    Dr. Fleming. In Arizona. That is not one of the states, as 
I can determine.
    Secretary Jewell. The Navajo Nation----
    Dr. Fleming. Colorado, New Mexico, and Utah----
    Secretary Jewell [continuing]. In Arizona was impacted.
    Dr. Fleming [continuing]. You did not visit at all.
    Secretary Jewell. Not in context of the Gold King Mine 
spill----
    Dr. Fleming. In the month following the spill you tweeted 
60 times, but did not acknowledge the blowout or the impacted 
communities in any of your social media posts. Why did you 
refuse to publicly acknowledge it since then?
    Secretary Jewell. This is an EPA issue. We were brought in 
as a consultant. This was not our primary issue----
    Dr. Fleming. So you are shifting the blame to EPA.
    Secretary Jewell. EPA is the primary agency responsible, as 
this committee is well aware.
    Dr. Fleming. Your Deputy Secretary, Mike Connor, was at the 
Grand Canyon on September 15. Why did he fail to visit the 
impacted areas during the time of his visit?
    Secretary Jewell. I am not aware of all the purposes of 
Mike Connor's visit, but he has been to the Gold King Mine 
site, and that was in November, to look at the treatment----
    Dr. Fleming. Not September 15. OK. On September 17, this 
committee held a joint hearing on the Gold King Mine disaster 
and invited you and EPA Administrator McCarthy to attend. 
Administrator McCarthy did attend, but you refused. Witnesses 
from the Navajo Nation, the Southern Ute Tribe, and the states 
of Colorado and New Mexico traveled all the way across the 
country to discuss how this spill had impacted their 
communities. Why couldn't you be bothered to cross the National 
Mall to attend?
    Secretary Jewell. It had nothing to do with being bothered. 
As Congresswoman Lummis explained, we were conducting an 
independent review of the Gold King Mine. I did not feel it was 
appropriate to appear before the committee while that 
investigation was ongoing. I did agree to appear before the 
committee today, as the report is out. And, of course, a lot of 
this conversation deals with that independent report.
    Dr. Fleming. Well, I cannot accept that excuse. Your report 
was purely technical, and it was basically restating the 
conclusions that the EPA had already reached in its own 
internal review.
    So, what exactly in your report could possibly have 
jeopardized the independence of your investigation?
    Secretary Jewell. It would have been inappropriate for me 
to come and visit with this committee while that independent 
investigation was going on; and I needed the context of that 
report to be able to provide information to this committee that 
would be relevant.
    Dr. Fleming. Again, I would just have to say it seems to me 
that the response in this case--and I think we all acknowledge 
this, certainly the media did--was lackluster. It just seems 
that there is a double standard. When something is caused by an 
agency within the Department of the Interior, in your 
Department, there seems to be very little activity, very little 
acknowledgment.
    Then, on the other hand, we can cite many examples where 
something goes wrong in the private sector, people are fined, 
people are fired, and criminal claims are made against them. 
So, I think that the chef should certainly eat her own cooking. 
Thank you.
    The Chairman. Thank you.
    Mrs. Torres.
    Mrs. Torres. Thank you, Mr. Chairman. Thank you, both of 
you, for being here. I appreciate having some time to talk 
about this very tragic event that happened. While we can argue 
about how this came about, I think it is also important to note 
the persistent problems that we have of abandoned hardrock mine 
lands, and the negative impact that they have, and will 
continue to have, on our water resources.
    The problem of abandoned hardrock mines is not going to go 
away. As we consider ways to reform our outdated mining laws, 
can you expand on existing programs that address other types of 
abandoned mines, such as coal, and recent budget cuts?
    Can you also speak to the impact that that has had on 
further ongoing investigations?
    Secretary Jewell. I do not have the specific numbers on our 
budget, but I will say that we have significant problems in 
coal and hardrock mining with regard particularly to water 
quality. I have visited mines, particularly in Appalachia, with 
a number of abandoned sites with acid mine drainage that is 
impacting water quality.
    We have a very thin team. I think the budget for the Office 
of Surface Mining Reclamation and Enforcement is down something 
like 25 percent over where it was a few years ago. So, the 
ability of our team to assist the states in understanding and 
working with mine operators to remediate these issues is 
severely constrained.
    In the case of hardrock mining, as was mentioned earlier, 
the BLM has a relatively small budget; it is about $16 million 
a year. I think that was mentioned by Mr. Grijalva in his 
testimony. It is insufficient to even begin to measure the 
scope of the problems, let alone address the real remediation 
that needs to be done, both for personal safety of people 
visiting these lands, as well as the environmental impacts from 
these lands. We would welcome an opportunity to work with the 
committee on a stable source of funding and a work plan to 
address these things that are really impacting the public 
health and safety of communities across the country, 
particularly the West.
    Mrs. Torres. Yes. As you continue to develop a work plan 
and work with members of this committee to do that, I would 
really like to piggyback on a comment that was made by Mr. 
Young--and that is to help tribes be a part of the solution on 
mines that are within their jurisdiction. I think having their 
input and having their expertise, or helping them gain that 
expertise, is equally important.
    Is there something else that you want to add? I know that 
several Members asked you questions that you have not been able 
to answer, and I would like to give you 2 minutes to answer 
that for the record.
    Secretary Jewell. Thank you. I would say that I have not 
had a chance to talk about the accountability and the 
transparency that Congressman Fleming was suggesting earlier.
    We have been very open. And I think, if you review the 
technical report, it clearly identifies issues where there 
turned out to be an error in judgment on the part of EPA. That 
is hardly not holding them accountable. It is, in fact, holding 
them accountable; and we have been very transparent in that. We 
will continue to be transparent and hold ourselves accountable 
for those things that are required of us.
    We are fully supportive of working with tribes on 
opportunities to clean up abandoned mines. In many cases, 
tribes do have the sophistication and the interest. We would 
welcome working together on having sufficient resources to 
address this issue, and continuing to provide economic support 
to tribes to be able to build that expertise to address these 
issues.
    I appreciate the opportunity to say a few things that I did 
not get a chance to say before. I stand behind our efforts. I 
stand behind our commitment to accountability and to continue 
to bring the resources we have to bear to assist EPA; I believe 
they do want to get to the bottom of what happened here. We 
will hold people accountable to the extent that it is 
appropriate, and we are conducting that investigation.
    Mrs. Torres. With limited budget resources--these are not 
folks that you can just get off the street and train, right? I 
mean they require a great deal of education and expertise. I 
would also say that it is somewhat criminal that we would 
continue to diminish a budget of the EPA or other organizations 
that we task with our water quality safety.
    I ran out of time, so I will yield back the last 2 seconds.
    The Chairman. Actually, you owe me four now.
    Mr. McClintock.
    Mr. McClintock. Thank you, Mr. Chairman. Madam Secretary, 
to a lot of us, I think the most galling element of this 
scandal is the government's double standard in addressing 
spills of this nature. The EPA and its contractors deliberately 
breached a mine opening that caused a blowout of over 3 million 
gallons of contaminated water. The EPA had not tested for 
hydrostatic pressure within the mine, even though experience 
with other similar mines suggested that they should.
    At the last hearing, we heard about a company that 
accidentally spilled 7,500 gallons. That is \1/4\ of 1 percent 
of what the EPA spilled. You went after that company with a 
vengeance. You got six criminal indictments; you sent people to 
jail. Another poor guy in Alaska operating a backhoe 
accidentally caused a 1,500-gallon spill. That is \5/100\ of 1 
percent of what the EPA caused. You sent him to Federal prison. 
Yet, as you just testified to Mr. Lamborn, you have sought no 
criminal indictments against EPA officials for causing this 3 
million gallon spill. You have not fired anybody over this 
scandal.
    Let me ask you this. Have you at least demoted anybody?
    Secretary Jewell. Mr. McClintock, I think those would be 
appropriate questions to ask EPA. In none of the situations----
    Mr. McClintock. I did, and their answer was----
    Secretary Jewell [continuing]. That you referenced is----
    Mr. McClintock. I did ask that question of the EPA. The 
answer was zero. I then asked, ``How many people at least have 
you docked the pay of? '' Do you know what the answer was? 
Zero. I then asked, ``Well, have you at least yelled at 
anybody? '' Let me ask you that same question. Have you yelled 
at anybody over this?
    Secretary Jewell. No, I have not yelled at anybody over 
this. Our job is to try and be responsive----
    Mr. McClintock. Well, the EPA Administrator said that she 
had, at least thought she may have, yelled at a few people.
    Here is the double standard. If you are a private citizen 
and you have an accident with a backhoe, you go to jail for 
spilling 1,500 gallons. If you are an EPA official responsible 
for negligently spilling 3 million gallons of contaminant, you 
might get yelled at by the EPA Administrator; but don't worry, 
the Secretary of the Interior won't say anything.
    Secretary Jewell. May I just suggest that you----
    Mr. McClintock. Do you understand how galling that is to 
the American public?
    Secretary Jewell. I do not agree with the facts that you 
have suggested. There is nothing in our technical review that 
suggested that there was any deliberate act to breach the mine.
    Mr. McClintock. I will get to that in a second. It has been 
6 months since this disaster. You testified that the EPA should 
have tested for hydrostatic pressure before breaching the adit. 
I would like to know the name of the EPA official who approved 
the breaching of that mine adit without hydrostatic testing.
    Secretary Jewell. I do not know the names of the EPA 
officials, but my understanding is that there was no----
    Mr. McClintock. Well, you have had 6 months; and the 
Department that you head was directly responsible for what we 
were assured in September would be a thorough, independent, and 
complete investigation of this incident, including the 
assignment of responsibility. Now you are telling me you were 
just kidding?
    Secretary Jewell. No. We did exactly what the agreement 
with the EPA was, in terms of providing a technical review. We 
did not see any deliberate intent to breach a mine. It was an 
accident.
    Mr. McClintock. The fact is this report failed to hold 
anyone accountable for the disaster. It offered only a cursory 
engineering analysis of the circumstances. The report states 
that the evaluation team did not believe it was requested to 
perform an investigation into a finding of fault.
    One of the peer reviewers, the expert with the Army Corps 
of Engineers, protested that the Department of the Interior 
report failed to explain the decisions that led to the 
disaster. He pointed out that the actual cause of failure was 
some combination of issues related to EPA internal 
communications. You are directly responsible for this report. 
Your EPA Administrator had promised this committee a thorough 
investigation. We have not gotten one. What we have gotten is a 
complete, deliberate whitewash.
    Secretary Jewell. We were doing a technical report. We 
delivered that report. My understanding is the EPA is doing a 
thorough investigation with people that are trained to do that. 
The people that did our report are trained engineers, and they 
delivered exactly what we agreed to do with the EPA, sir.
    Mr. McClintock. Again, you have said that you do not have 
the authority to prosecute for negligence; yet your EPA 
vigorously prosecutes private citizens for negligence, causing 
a fraction of the damage. May I ask if you at least asked for 
her resignation?
    The Chairman. You don't have to answer that one.
    Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman; and I am glad to 
see you today, Ms. Jewell and Mr. Palumbo.
    I think I want to associate myself with the remarks from 
Representatives Grijalva and Torres and some of my other 
colleagues in regards to some of the questions that have been 
posed and some of the statements that have been made.
    I have had somebody in that area through Thanksgiving, and 
was able to visit and talk to some of the folks in that general 
area, because he is from that general area. They tell me there 
is still a lot of evidence on the orange sediments. It could be 
possibly before the spill, because you have had the spill for a 
long time in that area.
    But the concern is, you talk about the Native Americans at 
Navajo, but you do not mention the other tribe. At least one of 
them, the Utes, they say all is well; but the toxins from that 
spill are still finding their way downstream. And, they go all 
the way down to Lake Powell, which is where California gets 
some of its water.
    The understanding is that the general public has a hard 
time differentiating between EPA and Bureau of Reclamation, who 
is down there, or what their role is. I do not think it is 
clear to some of the folks in that area. The contention is that 
they really just want somebody to have publicly-oriented 
results, a scientifically credible and, of course, independent 
review of those events made public to them. I am not just 
talking about the tribes and the environmental folks, but the 
folks that live in the area.
    Of course, I am sure the other tribes, they do want a whole 
picture, the big picture, and not just the newest words of how 
the Bureau has decisionmaking process and only in engineering.
    So, the impacts downstream have still not been divulged or 
presented to the general public in a complete manner. That is 
the report I am getting back, and this is as of last month.
    Secretary Jewell. OK.
    Mrs. Napolitano. Of course, there are still reports of 
people being sick. Now, they cannot prove that it is as a 
result of this spill. I am wondering whether there will be 
long-term effects, and whether there are going to be any 
studies on those long-term effects of the general population, 
the tribes, the issues in that area--is CDC going to be 
involved in this, the BIA, and being able to ensure that these 
are being addressed? Because these are long-term effects, not 
only for the current spill, but of what happened before that.
    We are looking at what is right for the public. I mean that 
is our bottom line. I am sure it is yours.
    Secretary Jewell. Sure.
    Mrs. Napolitano. The report that they would like to see--
the process, those reports made with due diligence and 
scientific integrity; and, of course, the public needs to trust 
us in being able to provide that for them.
    Those are things that I wanted to bring up. The 
subcontractors, is there any kind of insurance that they might 
have? I know that it is a Federal contract, but is there any 
coverage for any malfeasance or anything that might have 
happened--the subcontractors might be able to be there?
    I guess maybe my concern also, on the other side, is who is 
footing this bill for the cleanup?
    Secretary Jewell. OK. Let me tackle a few of those. First, 
my understanding is that EPA is proposing some long-term 
studies, and those are out for comment right now. So, it would 
be their responsibility for long-term studies on water quality. 
I will say that we have been providing assistance to the Fish 
and Wildlife Service, the USGS, and the Bureau of Indian 
Affairs.
    The spill, while it itself was not that large relative to 
how much is leaching out of that region, they are concerned, 
because of all of the toxic mine drainage, about the long-term 
impacts on their reservation land and on their agricultural 
crops; so they have been talking to BIA about how to address 
that.
    I don't know about EPA's relationship with the 
subcontractors, and what kind of coverage they might be 
required to have for malfeasance, because we did not engage in 
that contract.
    Mrs. Napolitano. But we need to find out. We need to ensure 
that maybe somebody addresses it somewhere along the line.
    It really is a concern for me, because these millions of 
dollars that have been spent and will continue to be spent, the 
taxpayers are going to end up paying for. That is a reality 
that we have not really faced; you do not have the budget to be 
able to continue doing the remediation in other areas that are 
going to be of even greater concern in the future.
    So thank you, Madam Secretary.
    The Chairman. Mrs. Lummis.
    Mrs. Lummis. Thank you, Mr. Chairman. Some of the proposals 
with regard to the future of abandoned mine land programs have 
been brought up this morning. So, since we are discussing the 
cleanup of abandoned mine lands, I want to raise a little bit 
about the history of AML payments to my home state of Wyoming.
    Of course, in the original SMCRA that passed in about 1977, 
states got half and the Federal Government got half of the AML 
money. The vast majority of Wyoming's mining of coal occurred 
since 1977. Wyoming has been number one in coal production in 
this Nation consistently since 1986, and received half of its 
AML payments.
    But over time, administrations and Congress were raiding 
our money and found different uses for it, whether it was to 
pay the retirement benefits or health benefits of miners whose 
mines had gone broke, or now this new proposal to do economic 
or community development in communities where coal mining is 
declining. It has been an effort to get their mitts on money 
from AML and to use it for something other than cleaning up 
abandoned mine lands.
    Last week, the President signed into law a fix to prevent 
the raiding of AML money, which requires some of these payments 
to be restored to Wyoming. Now, that check needs to be cut and 
delivered to Wyoming tomorrow--tomorrow--pursuant to the bill 
the President signed last week.
    Are you aware of this, and have you issued a warrant for 
the Treasury to make these payments to Wyoming?
    Secretary Jewell. No.
    Mrs. Lummis. OK. I want to let you know that the 
transportation bill that the President signed into law has a 
December 10 deadline on making Wyoming whole for past raids on 
its AML money.
    Secretary Jewell. I have just been passed a note that says 
Treasury has certified the warrant.
    Mrs. Lummis. Perfect. Thank you very much. It illustrates 
the problem--we create AML programs around here, such as is 
proposed in this POWER + Program, that would take $1 billion to 
give to communities for community development that have lost 
coal mining jobs; but it is not being used for mine cleanup, it 
is being raided for other purposes. In fact, it could be used 
to build recreation centers so people have somewhere to go who 
lost a job mining coal, or mining some other product such as 
uranium, that is also depressed, partly because the 
Administration is dumping product on the market that it holds.
    And, the fact that the mining programs in this country were 
so heavily regulated during World War II--their hours of 
operation were regulated, the government controlled which mines 
operated, which strategic minerals were produced, the 
production levels, the pricing levels--all during the war 
effort. Thousands of mines went out of business as a result of 
that; they were abandoned.
    This was all before we had an abandoned mines program. The 
government, literally, forced the abandonment of these mines. 
So, the Federal Government does have some liability. That has 
been acknowledged. That is part of the reason that EPA is 
helping to clean up some of these mines, because they were 
abandoned during World War II because of the mining effort.
    Now, here we are, where the government is forcing the 
switching of fuels from coal to natural gas in the name of 
climate change. Then these jobs are being lost. What they want 
to do is create a new AML program, take $1 billion out for 
community development to pay miners who have lost their jobs. 
It brings to mind an old saying, and this is attributed to 
Ronald Reagan, ``If it moves, tax it. If it keeps moving, 
regulate it. If it stops moving, subsidize it.'' And what is 
happening here is coal mining has stopped moving, so we are 
going to subsidize it through this billion dollars from AML. My 
gosh, will we never learn?
    I yield back.
    The Chairman. Thank you. Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chair.
    Secretary Jewell, thank you for being here and working to 
address the real issue of abandoned mines that are threatening 
our environment and our communities. I want to focus on the 
impact of these releases on our Native American communities, 
and how the EPA is improving its communications to tribal 
jurisdictions.
    EPA Assistant Administrator Mathy Stanislaus previously 
testified at the House Science Committee that one of the 
initial lessons that we learned in the aftermath of the Gold 
King Mine release is that the EPA can improve its 
communications regarding releases and other environmental 
events that may affect multiple jurisdictions.
    Can you elaborate and, where possible, provide an update on 
how the EPA is working to improve those communications, 
specifically to our tribal communities?
    Secretary Jewell. I don't know what EPA is working on 
presently. I am aware that they said that there were 
opportunities to improve, and we would certainly like to work 
with them on that.
    As I have gone through piecing together a timeline of 
events, I think that the tribe could have been notified 
directly by EPA, but we actually did pursue work the day of and 
the day after the spill. So I think, in terms of the actual 
impact, notifications were out there, but they maybe came 
through a less direct method than would have been ideal. So, we 
would support any effort that EPA would undertake to learn from 
this and to put more robust and direct forms of communications 
in place.
    One thing I would point out in our technical report--it 
said that there are very few guidelines or standards. There are 
a lot of people involved in cleaning up these sites, some of my 
own agencies--in this case, EPA and the states. I think this 
may be a wake-up call to do a better job of our communications 
and our response efforts.
    Mr. Gallego. Certainly, in talking to some of my friends in 
the Navajo Nation, I think that would have--the problem 
existed, obviously. The spill is a problem, but also how it was 
handled afterwards, and what seemed to be not a very coherent 
messaging program added insult to injury. I really encourage 
EPA and everyone else involved to work on that, especially 
concerning how many mines we have in Arizona. As a Member from 
Arizona, I am afraid this may be happening again. Thank you.
    Secretary Jewell. Thank you.
    The Chairman. Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman.
    Secretary, thank you so much for being here. Let me get 
right to my questions.
    Something happened just recently--last evening, actually, 
at the eleventh hour. EPA released an addendum to the internal 
report it released in August. Secretary Jewell, do you know 
that EPA was working on an addendum to the August internal 
report?
    Secretary Jewell. I knew that EPA was conducting ongoing 
investigations, and that our report was helping advise that; 
but I was not aware of specific actions that they were taking 
at this time.
    Mr. Thompson. OK. So you were not familiar with that report 
being released, were not informed about it at that point?
    Secretary Jewell. Right.
    Mr. Thompson. Well, actually, I think the EPA may be 
throwing you under the bus, at least in parts here. The 
addendum indicates that EPA recently re-interviewed two on-
scene coordinators, presumably the two who were responsible for 
the Gold King Mine spill; but their names, obviously, were 
conveniently blacked out, so who knows who EPA spoke to.
    In any case, they ask about DOI's report. So, now we have 
the EPA investigating the Department of the Interior 
investigating the EPA. Sounds a bit ludicrous, but certainly it 
affirms the report did not answer the questions it should have 
answered.
    Now, Secretary Jewell, is the EPA wrong, or do you stand 
behind your report?
    Secretary Jewell. We stand fully behind our report, and 
believe it met the terms that were identified when we signed 
the scope of work with the EPA in August.
    Mr. Thompson. Well, one thing it seems that you did get 
wrong--and I am not sure how EPA and the Department of the 
Interior both screwed up on this one--but, it basically is more 
of a technical issue. It really just comes down to the height 
of the mine opening.
    On August 12, EPA's contractor said the mine had been 
measured after the blowout, and the opening was 10 feet wide by 
15 feet high. Your report, released on October 22, said that 
the mine opening was thought to be 10 feet tall. But after a 
blowout, the supporting timbers were measured and found to be 8 
feet tall. Plus the crown of the mine opening at the portal 
area was slightly higher than 8 feet. And now, on December 8, 
the EPA says the entrance to the mine was actually 19 feet tall 
in their addendum report.
    Secretary Jewell, does the Department of the Interior even 
know the measurements of the mine entrance? That seems like a 
pretty fundamental fact, especially when EPA was digging into a 
mine that they knew might be full of contaminated water.
    Secretary Jewell. I am going to turn that over to David.
    Mr. Palumbo. Thank you, Congressman. I believe we do have a 
good understanding of the measurements of the mine opening, 
which is called the portal, as well as the adit itself, the 
tunnel, if you will, that is beyond the opening.
    I am not sure how EPA made its measurements that were in 
the addendum that was released last evening. We believe that 
the mine opening and the tunnel itself was approximately 8 feet 
high prior to the incident. And, due to erosion caused by the 
mine water release, was eroded to about 10 feet. So that 
opening, we have a good understanding--we went out on August 
14, September 3, and one other time; we have a good physical 
understanding of the characteristics of the mine opening.
    Mr. Thompson. Certainly, you understand my concerns. I mean 
what a variant--somewhere around 8 feet to 19 feet and varying 
opinions at different times. If we cannot get those basic 
critical facts straight, how can we make the argument that the 
Federal Government is the appropriate party to clean up these 
mines? It is abundantly clear that the EPA and Department of 
the Interior should not be anywhere near abandoned mines.
    And, Secretary Jewell, you should be ashamed of the 
Department of the Interior for becoming complicit in what 
appears to be the EPA's negligence in utterly failing to write 
a report that told us anything of substance about what actually 
happened at the Gold King Mine. If I were you, I would be 
concerned that your colleagues in the EPA appear that they are 
looking for a scapegoat at this point.
    Secretary Jewell. Well, Congressman, I am proud of the work 
that Reclamation did, and of the technical review. I think that 
they did a thorough analysis of the facts in the time frame 
that they had to generate a report--within a little over 60 
days.
    I do think that as more work is done on the mine, more is 
understood, like the collapse of the roof, which they would not 
have known before it occurred. These are all facts that are 
beginning to come to light, as more work is done on the mine.
    I do not think there is any intent to negligence, nor do I 
think that there is necessary disagreement. I think more 
information is continuing to come out over time, and that is 
typically how these investigations unfold.
    Mr. Thompson. Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Gosar.
    Dr. Gosar. Thank you very much. Thank you, Secretary 
Jewell, for showing up today.
    You were in private practice, right? The private sector, 
right?
    Secretary Jewell. Correct.
    Dr. Gosar. You were a CEO at REI, I believe.
    Secretary Jewell. Correct.
    Dr. Gosar. So, would you make the analogy with me that you 
are the CEO of Interior?
    Secretary Jewell. Yes.
    Dr. Gosar. OK. I am going to ask you a series of questions.
    Is it true that the Animas and San Juan Rivers run through 
parcels of land owned by the Department of the Interior's 
Bureau of Land Management?
    Secretary Jewell. Yes.
    Dr. Gosar. Is it true that the Animas and San Juan Rivers 
run through the reservation of the Navajo Nation and the 
Southern Ute Tribe?
    Secretary Jewell. Yes, and one other tribe that----
    Dr. Gosar. OK.
    Secretary Jewell. The Ute Mountain Ute, I believe.
    Dr. Gosar. Is it correct that the Animas flows into the San 
Juan River, which contains critical habitat for two species of 
fish, the Colorado pikeminnow and the razorback sucker, that 
are both listed as endangered under the Endangered Species Act?
    Secretary Jewell. Yes, that is true.
    Dr. Gosar. Is it true that the Bureau of Reclamation 
increased its releases from the Navajo Dam to try to dilute the 
spill?
    Secretary Jewell. Correct.
    Dr. Gosar. Is it correct that all areas I just listed fall 
under the jurisdiction of the Department of the Interior?
    Secretary Jewell. Yes. Well, the tribes, we had a 
relationship. Obviously, that is tribal land. We provide 
support.
    Dr. Gosar. The answer is yes. OK. So, as a CEO, you have a 
responsibility here. I have heard it over and over again. The 
gentleman from Virginia alluded to, ``Well, these weren't 
intentional.'' Does it matter if it is intentional or 
unintentional?
    Secretary Jewell. Yes, it matters if it is intentional or 
unintentional.
    Dr. Gosar. Oh, liability-wise? No. Oh, no. You ought to 
know that as CEO of REI; and you ought to know that as CEO of 
Interior. It does not matter because, as the gentleman before 
us cited about a backhoe and someone going to prison, the 
matter of that issue is, yes, it is unintentional, but there is 
still a consequence here. I hope you understand the frustration 
we have here, because we are talking about water quality over 
here, and I am talking about my veterans having it worse off 
because of bureaucratic nightmares for their health care.
    The bureaucracy does not take care of itself, because it 
holds nobody accountable. So, as the CEO of Interior, you had a 
claim here, because of these affected areas. Let me ask you the 
question then--do you feel that you are an independent source 
for review of what transpired in this case?
    Secretary Jewell. I believe we were, in the work that we 
did through the Bureau of Reclamation, yes.
    Dr. Gosar. As an independent source that you looked at 
this, why weren't you in immediate responses to these affected 
areas? You, personally.
    Secretary Jewell. My team was very responsive. I would say 
that we provided the level of response appropriate to the 
degree of this spill and the impact of the spill. The decisions 
were made not in Washington, DC; they were made in the regional 
offices that were closest to the action by the people most able 
to address the cleanup.
    Dr. Gosar. I am glad you said that, because we had Navajo 
President Russell Begaye here, who contradicts you on that 
application. In fact, he has testified before this committee 
about the lack of meaningful response from the Federal agencies 
following that disaster. I mean he noted it, specifically. So, 
I disagree again, and once again go back to the CEO of 
Interior.
    You also make mention that you did not arrive at the site 
until November, right? You came out personally to look at some 
of the areas in November.
    Secretary Jewell. Mike Connor, Deputy Secretary, went out. 
I have not been to the Gold King Mine site, personally.
    Dr. Gosar. You haven't been?
    Secretary Jewell. I have not.
    Dr. Gosar. OK. And what about the affected sites?
    Secretary Jewell. I had a visit that was related to Bureau 
of Indian Education close to the Navajo site. I met with the 
Navajo Vice President. We spoke about this, but I have not been 
specifically to look at the Gold King Mine incident.
    Dr. Gosar. Got you. The other side has also talked about 
abandoned mines. I know you, through your past CEO application, 
have resources and you try to magnify those resources. In your 
written testimony, you gave a very small blurb about the Good 
Samaritan cleanup. I want to highlight that, because I do not 
think we paid enough attention here. I think the gentlelady 
from Wyoming highlighted some of the abuses of the funds, and 
stuff like that.
    But my question is--when a mining company actually uses the 
Good Samaritan law, are they not under the jurisdiction of the 
Department of the Interior and EPA to do it as--fundamentally 
reclaim property?
    Secretary Jewell. You know, I am not familiar with the 
details of the Good Samaritan law.
    Dr. Gosar. And you know what? I am ashamed of that, because 
this is a resource that the mining companies have wanted to 
utilize; but bureaucrats have feigned that, because we are 
going to go in and do everything according to the book when you 
have stuff on site that they would actually do it.
    I would look at Resolution Copper, in which they have 
mitigated a claim. They have invested almost a billion dollars 
to do that. I think you owe it, as a CEO of Interior, to look 
at the Good Samaritan law and use that application to find and 
magnify it.
    I yield back, sir.
    The Chairman. Thank you. Mr. Labrador.
    Mr. Labrador. Thank you, Mr. Chairman. Secretary Jewell, it 
is good to see you again.
    On page 48 of your report, there is an updated Figure 39, 
which describes as showing EPA's assumptions about the entrance 
to the mine adit. Although someone reading your report would 
not know it, that figure was prepared after the blowout, and 
the report author knew this when they authored the report. 
Isn't that correct?
    Secretary Jewell. I am going to turn to David to respond to 
the technical report. Do you have a figure number? Is it 39, 
you said?
    Mr. Labrador. Yes, Figure 39 on page 48.
    Secretary Jewell. And, I am sorry, the question again?
    Mr. Labrador. Someone reading this report would not know 
it, but that figure was prepared after the blowout. Isn't that 
correct?
    Mr. Palumbo. I am not absolutely certain, but I believe 
Figure 39 was from EPA's files, and was prepared before the 
blowout.
    Mr. Labrador. That is not correct.
    Mr. Palumbo. It is not?
    Mr. Labrador. No. It was prepared after the blowout.
    Mr. Palumbo. OK.
    Mr. Labrador. Your report uses that figure throughout to 
describe, through narrative illustrations, the EPA plan being 
carried out last August. The steps included digging up the 
tunnel opening from above; inserting a metal pipe, called a 
stinger, through the collapsed material in the opening, or 
through the plug; and then using a pump to drain the water 
impounded in the tunnel or the adit.
    Although your report makes no mention of it, on August 5, 
2015, there was no stinger and no pump at the Gold King Mine 
site. Isn't that correct?
    Mr. Palumbo. I don't know if there was a stinger or pump at 
the mine site. I will say that these figures in the report--
Figures 40 and on--were meant to depict what EPA's plan was, an 
illustration of how they were going to proceed. That work 
activity never made it that far because, when the backhoe in 
Figure 41 breached the top of that rubble, the release began to 
exacerbate and----
    Mr. Labrador. Yes, but did----
    Mr. Palumbo [continuing]. The whole thing fell.
    Mr. Labrador. You are saying that this was the plan. But 
when you were working on that date, you did not have what you 
were supposed to have in there, correct?
    Secretary Jewell. To be clear, we were not working on that 
date.
    Mr. Labrador. Oh, correct.
    Secretary Jewell. The Bureau of Reclamation was not there.
    Mr. Labrador. So by 10:51 a.m. on August 5, the time the 
water began spurting from the Gold King Mine, a channel had 
been prepared on the right side of the excavation so that water 
from the mine could be directed to an existing drainage system. 
Isn't that correct?
    Mr. Palumbo. Correct.
    Mr. Labrador. Dr. Olsen, the Army Corps of Engineers 
reviewer of your report, stated that there was no explanation 
in this report of the urgency to start digging out the plug, 
rather than wait for BOR technical input, as prescribed by the 
EPA project leader. Your report does not contradict or refute 
this statement in any way, does it?
    Mr. Palumbo. It does not contradict that statement. I will 
note that our peer review process, which included a signature 
by Dr. Olsen, attests to the technical merits of our report. 
That was a non-technical matter beyond our scope of work. We 
understood that work was being done by the OIG, which we 
believe, in fact, it is being done by the OIG.
    Mr. Labrador. Last night, on the eve of today's hearing, 
your report that EPA paid you to do, EPA remarkably revealed an 
addendum to its own investigative report unveiling new 
revelations from EPA that are reportedly based, in part, on 
more interviews with EPA's on-scene coordinators. Your report 
makes no assertion whatsoever that the steps of inserting the 
stinger through the plug, or any other steps involving actually 
breaching the mine entrance, were going to be paused until 
August 14 or later. Now you are claiming that they were going 
to be paused, when other experts would be on the site. Isn't 
that correct?
    Mr. Palumbo. I am sorry, can you repeat that?
    Mr. Labrador. Your report makes no assertion whatsoever 
that the steps of inserting the stinger through the plug, or 
any other steps involving actually breaching the mine entrance, 
were going to be paused until August 14.
    Mr. Palumbo. We do not identify that in our report, no. 
That was, again, beyond the scope of that type of investigation 
internal to EPA's decisionmaking process.
    Mr. Labrador. OK. Secretary Jewell, in your response to Mr. 
McClintock, you said there was no evidence that anybody did 
anything intentional. In response to Mr. Gosar, you said again 
that intentionality is an issue. But for private citizens, all 
these environmental crimes are strict liability crimes. Why is 
there a different standard for private citizens than for 
workers of your administration?
    The Chairman. We will pick that question up at some other 
time.
    Mr. Westerman.
    Mr. Westerman. Thank you, Mr. Chairman; and thank you, 
Madam Secretary, for being here today. The Minority has 
illustrated that there are many Gold King Mine disasters out 
there waiting to happen. Because of the hundreds of thousands 
of abandoned mines, there is potential for this type of 
environmental disaster caused by the EPA to be repeated.
    For all practical purposes, the technical report is akin to 
an autopsy report. We have a corpse--or, in this instance, a 
toxic mine spill disaster; and, technically, the report 
accurately outlines what happened. The EPA was incompetent. 
They followed a bad plan, or a lack of a plan. Actually, I have 
still not had my questions answered as to whether there was a 
professional engineer in charge, as outlined by Colorado law on 
this particular project.
    But, they started work without understanding what they were 
doing, they dug a hole where they should not have, and they 
released 3 million gallons of toxic water into the environment. 
What happened is straightforward, not surprising, and certainly 
not rocket science. The sad part is that the disaster was very 
much preventable.
    There are two major problems I see with this report. Number 
one: the lead examiner has a conflict of interest with the 
perpetrators. He may be as honest as the day is long and 100 
percent accurate in his findings, but it is like the coroner 
being the suspect's cousin. The report fails miserably to 
outline the root cause of the disaster, who specifically was at 
fault, or how to prevent this in the future.
    Madam Secretary, like me, you have worked in the private 
sector, and you have dealt with Federal regulations and 
regulators. The private sector is scared to death of Federal 
regulators, because they know the heavy hand of the Federal 
Government can shut them down. The private sector wears both 
suspenders and belts when they deal with regulators. They spend 
way more time and money to make sure they dot all the I's and 
cross all the T's, and oftentimes that is still not enough.
    My first question to you is--should Federal agencies be 
held to the same measure that they measure by?
    Secretary Jewell. I believe the work that is being done in 
something like this--EPA is trying to do a job of cleaning up a 
problem it did not create. I think it is a little bit different 
to compare that to a private company that is, in fact, mining 
or doing other work, in terms of what its responsibilities are.
    I think that is very clear in our report. I disagree with 
the premise that it was not independent; I believe it was 
independent. I don't know the credentials of the EPA people on 
site, and our report did not get into that, because it was not 
the scope of the report. But I think that it clearly indicated 
what happened, and while you can look, as we have, after the 
fact, and say----
    Mr. Westerman. Do you not think the qualifications of the 
people on site are germane to----
    Secretary Jewell. I think they are germane, but that was 
not part of the scope of our investigation.
    Mr. Westerman. Why was it not part of the scope?
    Secretary Jewell. We did a technical review of what 
happened. The investigation on those kinds of questions is 
being conducted by the EPA through their Office of the 
Inspector General.
    Mr. Westerman. So, they are investigating themselves on 
their technical competence to have done the work?
    Secretary Jewell. Their IG is doing a thorough 
investigation, and should additional investigations come from 
that--that could happen.
    Mr. Westerman. Do you not agree that the technical 
expertise of the people planning the project was germane to the 
whole project, or are you saying--I mean it is easy to say, 
``Well, they dug a hole where they shouldn't, and we released 
all this toxic water.'' Anybody could have probably walked out 
and done that report.
    Secretary Jewell. If I were in the same situation as 
Administrator McCarthy, absolutely I would want to know about 
those things. I believe those questions are being answered 
through an appropriate body, which is the Office of the 
Inspector General. It was not part of the scope of the work 
that we were asked to do.
    Mr. Westerman. So, at the very least, should Federal 
agencies correct their policies so they do not repeat mistakes?
    Secretary Jewell. One of the things that this pointed out 
is that there are very few guidelines or standards, 
particularly engineering standards regarding abandoned mine 
lands. I think that that is a call to action for all of us, to 
look at putting some of those standards in place, so that there 
is a reduced risk of this happening again.
    Mr. Westerman. To me, it seems like there is an obvious 
major systemic flaw in the process of how these projects are 
done, and the report seemed to turn a blind eye to that. It 
analyzed what happened, but it did not really look at the root 
cause of why it happened, why there was poor planning, why 
there was not appropriate expertise on site, and what could be 
done to fix that.
    I know that professional engineers nationwide have called 
for improved standardized best practices that must be adhered 
to for all Federal engineering projects. Why doesn't the 
Department of the Interior support this recommendation?
    Secretary Jewell. I think we would support that 
recommendation. I have not seen it, personally, but I think the 
report clearly indicated we could have stronger standards 
across the Federal family on the cleanup of abandoned mines.
    Mr. Westerman. Thank you, Mr. Chairman.
    The Chairman. Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman, members of 
the committee, and Secretary. I apologize for not having been 
here this morning. I had a conflict with another hearing.
    The Department's role with the Environmental Protection 
Agency on this particular spill, the Animas River--I think, 
clearly, the facts indicate that this was the responsibility of 
the Environmental Protection Agency. I am trying to understand 
why the Secretary of the Interior here is giving her good time 
in the committee with that clarification in mind.
    Certainly, we are all concerned about abandoned mines and 
the serious threats that they create as it relates to hazards. 
I think that is something we all share, as well as its impacts 
to how they are handled. Clearly, no one believes that the 3 
million gallons of toxic waste that flowed from the Gold King 
Mine wasn't a terrible accident. It is regrettable and, 
clearly, mistakes were made. I think we are learning from the 
mistakes, but it just seems to me that, in observing how we try 
to work together as a committee, we should try to focus on 
areas where we can do the most good.
    I am trying to understand, Madam Secretary, after all the 
questions that you have been asked today with regards to your 
role and the Bureau of Land Management's role, where you have 
some responsibility, what are your takeaways from this hearing 
this morning? Because, frankly, if we are going to be 
constructive and determine where we go forward, is this 
something, in terms of the merits, which we can actually have 
an ability to make corrective action; because of jurisdictional 
issues, we were not able to have the Environmental Protection 
Agency head here. We had you, instead.
    Clearly, I do not think it makes good sense, whatever 
differences you may have with the EPA on this effort, to figure 
out that this is some sort of a fight or a difference that you 
have between the agency and the Department. You care to 
comment?
    Secretary Jewell. I would say that between the EPA and 
ourselves, we share a common disappointment that the spill 
happened, a common desire to try to get to the bottom of 
exactly what happened, and how do we prevent that from 
happening in the future. I think if there is one thing that 
this hearing does, it shines a spotlight on the challenge that 
we have across this Nation of abandoned hardrock mines, and the 
fact that there are very limited resources to clean them up.
    I think the other thing that this hearing points out is, in 
a situation like the Gold King Mine, which was closed in 1922, 
that there is continuing buildup of toxic material that is 
leaching out of mine tailings, the mines themselves, and some 
natural deposits that are a problem that need to be addressed 
that are impacting many of our states.
    My sense is the EPA is doing what it can with limited 
resources to address the cleanup. They wanted to know what they 
did wrong here, so they could learn lessons from that. We are 
learning lessons about the lack of clear standards and guidance 
with regard, particularly, to the engineering aspects of these 
mines; and I think those are all lessons that we take away from 
this that will make us more effective land managers and more 
involved in cleaning up these things that we did not cause, but 
we now have responsibility for.
    Mr. Costa. Yes. Let me just make one comment in closing. 
When I chaired this subcommittee a few years back, we looked 
into the whole hardrock mining law. While there have been some 
minor changes over the years--and maybe this calls into 
question the purpose of this hearing--there has been no 
significant change to the law since it was enacted during the 
Grant administration. That has been a few years ago.
    So, it seems to me, if the takeaway from this meeting is to 
be productive, that maybe the subcommittee or the full 
committee ought to take a look at the legislation that was 
created during the Grant administration and see how we might 
improve it.
    The Chairman. He was a good guy. Mr. Newhouse.
    Mr. Newhouse. Thank you, Mr. Chairman. Madam Secretary, a 
pleasure to have you here this morning. Mr. Palumbo, thank you 
for being with us. And thank you, Mr. Chairman, for holding 
this hearing on this important issue.
    You said yourself, Madam Secretary, that these conditions 
are not unique; they are quite prevalent, especially in the 
western United States, with thousands of potential issues 
surrounding abandoned mines. I think it is proper that we, as a 
committee, look into the `whys' and `wherefores' of not 
ignoring the elephant in the room, as some people have referred 
to, but wanting to shed light on what happened, what did not 
happen, how we can best avoid this happening in the future. I 
think that is prudent, and thank you for contributing to that 
conversation.
    I also wonder the value of minimizing this. It was 
substantial, the number of gallons. Certainly there is an issue 
with water contamination from all these mines, but this was an 
extraordinary environmental incident, and something that we 
should certainly see as something that we need to address.
    I just put my questions somewhere where I cannot find them. 
What did I do with those, Mr. Chairman? Someone stole my 
questions. What I wanted to ask you--here we are--I will let 
you expound on a couple of questions that you had been asked 
previously. So--that is not it.
    One of the peer reviewers in the independent study that you 
released on this Gold King Mine incident protested that the DOI 
report failed to explain the decisions that led to the 
disaster. This comes after Administrator McCarthy frustrated 
the committee's previous efforts to get to the bottom of this 
issue.
    So, Madam Secretary, could you tell me--why didn't the EPA 
test the hydrostatic pressure within the mine before working, 
even though it was well known that contaminated mine water was 
gathering in the mine's tunnels? And if these conditions were 
not possible to be ascertained, why would they proceed?
    Secretary Jewell. Congressman, I am going to turn that over 
to my technical expert, if you are OK with that. David?
    Mr. Palumbo. Yes, thank you, Mr. Congressman. Thank you, 
Secretary.
    We don't know why EPA did not decide to test the 
hydrostatic pressure. We do know that they tested the 
hydrostatic pressure on the Red and Bonita Mine. We do know 
that they contacted the Bureau of Reclamation and arranged for 
a site visit on August 14--of course, after the incident, it 
was no longer needed to go out for that particular reason.
    We would have discussed with them the need to test that 
hydrostatic pressure. We understand that EPA's Office of the 
Inspector General is doing that investigation internal to EPA, 
interviewing employees to get to the bottom of that question of 
why the hydrostatic pressure was not tested. We just know that 
it wasn't. We would have recommended that it was, just as it 
was for the Red and Bonita Mine.
    Mr. Newhouse. A key point, and lessons learned, as Mr. 
Costa referred to.
    The same peer reviewer from the Army Corps further states 
that the report should have described what happened internally 
within EPA that resulted in the path forward and eventually 
caused the failure. So why wasn't this information provided, 
and how will the responsible individuals be held accountable 
for their actions if your Department will not reveal such 
pertinent information?
    Secretary Jewell. So, just to be clear, the scope of work 
that was agreed upon by ourselves and EPA was a technical 
review. The people that did that technical review were experts 
in engineering, mine remediation, geology, and so on. We do not 
have, in the Bureau of Reclamation, the authorities necessary 
to conduct an investigation of individuals. Those kinds of 
authorities would rest with the Inspector General and other 
oversight bodies.
    I am confident the EPA wants to get to the bottom of those 
issues, that was just not what the Department of the Interior 
signed up to do in the work plan that we agreed to with EPA, 
nor would we have the authorities to do that work.
    Mr. Newhouse. So, that was not information that you felt 
necessary to bring forward?
    Secretary Jewell. It was not part of the scope of work of 
what we agreed to do with EPA.
    Mr. Newhouse. OK. Again, I appreciate your adding to the 
discussion on this issue, and for both of you being here this 
morning. I yield back, Mr. Chairman.
    Secretary Jewell. Thank you.
    The Chairman. Mr. Hice.
    Dr. Hice. Thank you, Mr. Chairman and Secretary Jewell, who 
was not able to join us previously in September. I am pleased 
that you are finally here with us today. I appreciate that.
    I want to go with the same line of thought here of why--if 
we have determined that the testing of the water was important, 
but it was not done; there was a change of personnel, and that 
change of personnel created urgency that this needs to be done; 
but we don't know who that change of personnel was--aren't 
those important questions? How can we hold someone accountable 
if we are not even going to look into these types of questions?
    Secretary Jewell. Well, as I have said over and over again, 
our work was a technical review. I do not want to make 
assumptions on whether there was urgency or not urgency to do 
the work. We have done the scope of the review, based on the 
information that we were provided at the time.
    The investigation of intent and so on is an ongoing work 
that is being conducted by the EPA.
    Dr. Hice. It does not seem like it is that much of an 
investigation to find out there was an urgent decision made, 
otherwise the BOR would have been waiting--a delay before 
proceeding, and the water took off.
    Let me go back to the September hearing. One of the 
individuals we had giving testimony from the state of New 
Mexico stated clearly that the involvement from the Department 
of the Interior following the disaster was non-existent. That 
is an extremely strong word, ``non-existent.'' He did clarify 
that your Department had put out a press release stating that 
you were preparing an investigation, but with no details on 
what the scope of that investigation would be.
    The scope is kind of important in this whole thing. It is 
something, again, that we had planned to ask you, but you were 
not here. What was your personal involvement in managing the 
disaster, following the blowout?
    Secretary Jewell. Let me just say that the facts 
demonstrate that we were very active, from day one----
    Dr. Hice. I am asking about you. Did you visit the site?
    Secretary Jewell. I have not visited the site. Others with 
much more technical knowledge have visited the site, including 
my Deputy Secretary. I have not personally visited the site, 
nor did I feel that it was important to do so, because of the 
level of resources and expertise that we had engaged at 
multiple levels.
    Dr. Hice. Your predecessor visited the site in the Gulf of 
Mexico of the Deepwater Horizon spill that was caused there by 
a private-sector business. Again, I will follow up on the 
questions from my colleague, Mr. Labrador. Why is there a 
double standard? Why was there a visit in the Deepwater Horizon 
case immediately from someone in your position? Now we have 
something--a disaster from the EPA, and to this day you still 
have not visited the site. Why is there a double standard?
    Secretary Jewell. Well, I do not believe there is a double 
standard. The Department of the Interior was a primary 
regulator in the offshore oil incident in the Deepwater 
Horizon. EPA was the primary regulator involved here. Deepwater 
Horizon was a very different incident with very different 
implications, including killing 11 people. This spill, while 
significant and something we are all learning lessons from, 
does not compare in magnitude at all to the Deepwater----
    Dr. Hice. So if this was a private-sector business 
involved, you would not have visited the site?
    Secretary Jewell. Beg your pardon?
    Dr. Hice. You would not have visited the site?
    Secretary Jewell. I am not sure I understand your question.
    Dr. Hice. If the EPA was not involved here, but a private 
business was involved in this disaster, you are saying you 
still would not have been interested in visiting the site?
    Secretary Jewell. It is not a question of interest, sir. I 
do not believe it would be appropriate for me to necessarily 
visit the site. It would be the regulator that was most closely 
involved. This is a private land site. The state was involved--
--
    Dr. Hice. But it comes under your jurisdiction, and it was 
a disaster; and for disasters much less disastrous, people have 
gone to jail in the private sector. But you still have not 
visited the site.
    Let me go on, I have tons of questions here. The fee--the 
Administration has proposed an AML fee on hardrock mines. This 
is potentially going to create a very great hardship--I see my 
time is running out. Mr. Chairman, this is precisely why I have 
introduced H.R. 3844, the Energy and Minerals Reclamation 
Foundation Establishment Act, to help get the private sector 
involved into building a foundation to address the issues that 
we are discussing here today. And with that, sir, I yield my 
time back. Thank you.
    The Chairman. Thank you. Great bill. Mr. Hardy.
    Mr. Hardy. Thank you, Mr. Chairman. Thank you, Secretary 
Jewell, for being here today.
    You stated earlier, that the Bureau of Reclamation doubled 
its water volume down from the Navajo Dam to dilute the toxic 
plume, is that correct?
    Secretary Jewell. That is correct.
    Mr. Hardy. Adversely modifying the critical habitat of an 
endangered species is a violation of the ESA. Can you confirm 
no contaminated sediments were deposited on the river bed, or 
that the water quality in the area of the critical habitat for 
the Navajo's San Juan River was adversely modified, or all the 
plumes from that spill or that critical habitat of these 
endangered species will not be adversely affected by the toxic 
sediments deposited upstream?
    Secretary Jewell. The judgment was that the release of 
water from the dam would dilute an otherwise more toxic 
situation, so a decision had to be made very quickly. The Fish 
and Wildlife Service was doing testing upstream of that to 
determine whether there had been an adverse impact on 
threatened and endangered species, and had seen no impact, and 
had done multiple testing.
    Mr. Hardy. OK. I guess the question is--do you know what 
the future is? Are there other contaminated materials left up 
there? Have we done that study?
    Secretary Jewell. We are continuing to do studies. Largely, 
the EPA is doing ongoing work on sedimentation. We will 
continue to look at impacts from this spill, but also toxic 
contaminants in the area. That is something that we are doing 
also with----
    Mr. Hardy. OK, lots of questions, short amount of time.
    Secretary Jewell, Administrator McCarthy testified at the 
previous hearing that the EPA did not consult on the actions 
that led to the Gold King Mine blowout. The FWS, after being 
asked multiple times by the committee, confirmed that EPA had 
never requested consultation on the actions that they planned 
to take on the Gold King Mine. Clearly, those actions reached 
the bar at its lowest level, I think, which triggers a 
requirement of consultation with the ESA. In fact, these 
effects of the EPA's actions were so significant that your 
Department attempted to offset them by releasing hundreds of 
millions of gallons from the Navajo Dam.
    Are you going to go in and hold the EPA responsible for not 
following the actions they are supposed to follow through with 
engagement with others?
    Secretary Jewell. It is the EPA's choice whether or not to 
do a Section 7 consultation with the Fish and Wildlife Service. 
I think it is abundantly clear that they had no intention of 
the spill, that that was not part of the original plan; and, 
therefore, they did not feel a Section 7 consultation with the 
Fish and Wildlife Service was necessary.
    Mr. Hardy. So how do you feel? Do you feel this is 
acceptable, the way they handled that?
    Secretary Jewell. I believe that the spill was an accident, 
and that they should not have been required to conduct a 
Section 7 consultation in advance.
    Mr. Hardy. Really? With that question, then, it leads me to 
ask--we asked the Director, how many mining engineers they have 
on staff. With her answer, we found we have more on this 
committee than we do with the EPA.
    How many mining engineers, or geological engineers, soils 
engineers, hydrological engineers, all the other types of 
engineers, do you have on your staff?
    Secretary Jewell. Well, I am an engineer, and David is an 
engineer.
    Mr. Hardy. OK, let's ask the question. A mining engineer--
we are dealing with mines.
    Secretary Jewell. David, do you have--do you know?
    Mr. Palumbo. Sure. So a mining engineer--and you also 
mentioned geotechnical engineering, hydrologic engineering--we 
have a whole suite of engineers in the number of hundreds of 
engineers that have that broad expertise--Mike Gobla, in 
particular, is a mining engineer, a very unique skill----
    Mr. Hardy. OK. We are going to take another step here. So, 
with the Bureau of Reclamation being involved in this, why was 
there no consultation from the EPA with you folks, where you 
have the expertise? Shouldn't it come down that avenue of 
discussing?
    Because, as a contractor myself in the past, this is one 
thing you keep talking about--you hired somebody with 
specialized knowledge of what to do. Where was their bond, and 
where was their insurance that is required by all Federal 
agencies? Why are we, the taxpayers, dealing with this, and why 
isn't the person we hired to be an expert paying the price?
    Secretary Jewell. We can speak quickly to the fact that 
there was a request for support from our experts on the Red and 
Bonita Mine, and they had initiated an inquiry for consultation 
on the Gold King Mine for August 14. That ended up being 9 days 
after the spill, but they do use us on occasion.
    We are not in a position to answer the questions about what 
kinds of bonding and requirements that the EPA has with their 
contractors. I don't know the answer to that.
    Mr. Hardy. Federal contracts, I think most of them are 
dealt the same way. Thank you, Mr. Chairman.
    The Chairman. Thank you. Mr. Lujan, we appreciate you being 
with us here today. Before we go into another round of 
questions, do you have a statement you would like to make?
    Mr. Lujan. Mr. Chairman, I do, and a few questions, if that 
would be OK.
    Madam Secretary, thank you for being with us today. 
Chairman Bishop and Ranking Member Grijalva, thank you for 
indulging me the opportunity to be here today.
    Madam Secretary, as you know, a big part of the 
contaminated area and where the spill took place was in New 
Mexico. I had the honor of attending some of the meetings that 
took place in Durango in New Mexico with EPA Administrator 
McCarthy, as well as community meetings that took place in 
those areas.
    Just real quick; as we look at this report, Madam 
Secretary, your report made clear that responsibility for the 
mine blowout rests with the Environmental Protection Agency. 
Correct?
    Secretary Jewell. Correct.
    Mr. Lujan. The report points out that the EPA mine 
remediation crew attempting to reopen the mine failed to take 
into consideration the engineering complexity, and 
miscalculated the water level inside the mine, which led 
directly to the failure. Correct?
    Secretary Jewell. Correct.
    Mr. Lujan. The report also stated that there are actual--I 
quote--``little and actual written requirements that government 
agencies are required to follow when reopening an abandoned 
mine.'' Correct?
    Secretary Jewell. Right.
    Mr. Lujan. So, as we look at this, how are we going to 
correct that? And, considering the likelihood of another 
incident like this occurring, what is the Department of the 
Interior doing to ensure that an accident like this one never 
happens again?
    Secretary Jewell. I would like to be able to guarantee it 
would never happen. I think the reality is that these 
circumstances are really unknown. What we need to do is have 
more work up front on the engineering and the hydrology to 
better understand.
    As we digest not only the report that we have produced, but 
also subsequent reports, we will welcome an opportunity to work 
with EPA, other land management agencies, states, as well as 
other stakeholders, on coming up with standards; and we would 
also like to work with this committee to come up with some 
solutions on the funding side and the process side, so that we 
can address these issues, because, as Mr. Grijalva said, there 
are a lot of ticking time bombs out there. But, there are 
lessons learned here that we need to address, and I think 
getting experts together to work on that is appropriate.
    Mr. Lujan. I appreciate that. Mr. Chairman, one of the 
other failures that took place was, after the spill, there was 
no notification to impacted communities downstream. We have to 
work to make sure that whatever rules are preventing us from 
notifying individuals on their mobile phones or their home 
phones, businesses--we need to be able to communicate to them 
and make them aware.
    This also needs to be rectified for every Federal agency 
across the government in the United States; so that if there is 
ever an incident like this, that everyone that needs to be 
notified is notified, as opposed to depending on neighbors.
    There have been a lot of conversations about the 
independent investigations. Madam Secretary, I think it is 
critically important that there truly be an independent look at 
this with participation and leads from the states of New 
Mexico, Arizona, Colorado, Utah, and the tribal leaders from 
Southern Ute, Ute Mountain, and Navajo. It has to be done where 
EPA is a part of that, but not necessarily the lead, where 
everyone is collaborating to looking into what needs to be 
done, and how we get that done, as well.
    There is also a concern that some of the peer reviews of 
DOI's investigative report have not been made public, including 
those by the U.S. Army Corps of Engineers. Is that something 
that can be made public, so that way we get to the bottom of 
all of these pieces?
    Secretary Jewell. David, do you know the protocols on peer 
reviews?
    Mr. Palumbo. All of the peer review documents are currently 
being reviewed to see if it is appropriate for them to be 
turned over. We have produced those internally in the 
Department of the Interior. Our solicitors are looking at 
those, and are making the determination on the protocols for 
what could be turned over and what should not be turned over.
    Mr. Lujan. I certainly hope, as we get to the bottom of 
what happened--all these families were impacted, and it seems 
now that everyone is worried about covering their own behinds, 
as opposed to making people whole and getting to the bottom of 
this.
    Secretary Jewell. We will release all appropriate 
documents, and I know EPA is deepening the investigation with 
regard to the individuals involved and their intent. Our report 
really was just technical in nature, and that is all it 
addressed.
    Mr. Lujan. I appreciate that clarification, Madam 
Secretary.
    Then last, Mr. Chairman, I just want to thank Chairman 
Grijalva for introducing H.R. 963, which includes the Good 
Samaritan legislation that Mr. Gosar was mentioning. I have 
also authored a piece of legislation, H.R. 3602, Gold King Mine 
Spill Recovery Act; and I would encourage our colleagues to 
look at that.
    Thank you for looking into this. I look forward to working 
with everyone on making everyone whole as soon as we possibly 
can. Thank you, Mr. Chairman.
    The Chairman. Thank you for being here. You asked a couple 
of questions I want to follow up on, too, that were 
significant. You also called him ``Chairman Grijalva.'' Are you 
getting ahead of yourself here a bit?
    Mr. Lujan. Chairman Bishop, I apologize.
    The Chairman. That is OK, just watch it.
    Mr. Grijalva. He is mired in the good old days.
    The Chairman. They weren't all that good.
    [Laughter.]
    The Chairman. Ms. Jewell, we promised you to be done at 
12:30. Mr. LaMalfa has snuck in here without me seeing him. Can 
we impose on you to stay 10 extra minutes?
    Secretary Jewell. That is fine.
    The Chairman. Thank you for that.
    Mr. LaMalfa, you are recognized. I apologize for--we will 
put a bell around your neck from here on in.
    Secretary Jewell. He was here, earlier.
    Mr. LaMalfa. I am hard to miss. I will try and do it in 3 
minutes. Thank you, Secretary Jewell.
    One of the concerns I have over the spill, and that is a 
precedent, pertains to the possibility of a similar situation 
which we could see in my district, near Redding, California, 
about 150 miles north of Sacramento. There is an inactive mine 
called the Iron Mountain Mine, which contains extremely acidic 
drainage. The acid would be, as I am told, 6,300 times as 
acidic as a battery, which is why Iron Mountain is considered 
one of the most toxic sites in the country.
    What we are concerned about is that it would have an 
opportunity to drain to a small reservoir which then feeds into 
California's--one of the largest water systems--the Sacramento 
River system. Obviously, the concern that would go with that 
was something possibly happening there, if we did not follow 
the right protocols. That is a system that feeds into the 
drinking water and Ag. water, and affects the water for 
millions of people in the state.
    There are several Interior agencies involved in Iron 
Mountain Mine, including BLM, Bureau of Reclamation, Fish and 
Wildlife, and the U.S. Geological Survey. Uncontrolled spills 
in the past have resulted in acidic release from Iron Mountain 
and have not been of big consequence yet--but California's 
water supply in drought or not drought is a huge concern.
    We are concerned that Federal agencies, by trying to block 
a previous leak, the mine entrance failed because the waste is 
so acidic that it ate through the steel and concrete plug 
involved. We are going to have to think seriously about what is 
going to be a better permanent solution, and monitoring of 
that.
    Can you describe any Federal efforts to address Iron 
Mountain continuously, and whether there is any perceived 
danger that you can see of that being a major problem in the 
near term, or a need to step up the levels of monitoring in the 
future.
    Secretary Jewell. Thank you for bringing that to my 
attention. I am not prepared here to discuss the Iron Mountain 
Mine, but I am very happy to look into that for the record, and 
will be happy to get back to you with----
    Mr. LaMalfa. Please.
    Secretary Jewell [continuing]. What the plans are on the 
ground. So, we will look into it. Sounds like another one of 
these risky situations that is out there that----
    Mr. LaMalfa. And it has had problems in the past. 
Thankfully, it has been contained, and has not been a really, 
really bad problem, as with the example we have seen with 
Animas and all that here. We certainly do not want that to 
happen again; so, we would wish to work with you on that, and 
see what the protocols are.
    Secretary Jewell. Happy to do that.
    Mr. LaMalfa. We want to ensure that the mine and that water 
system stay safe. Thank you.
    Secretary Jewell. Thank you.
    Mr. LaMalfa. Three minutes, sir.
    The Chairman. Thank you for doing that. She is grateful for 
you.
    Mrs. Lummis, do you have a UC request?
    Mrs. Lummis. Mr. Chairman, I do have a request to submit a 
couple things to the record. One is a U.S. Forest Service 
publication, ``Abandoned Mine Lands: A Decade of Progress 
Reclaiming Hardrock Mines.''
    I also have an email that I would like to enter. We heard 
Mr. Palumbo earlier assume that the figure that was drawn in 
the report was--it is Figure 39 in the Bureau of Reclamation 
report. It includes EPA's working assumptions. The EPA 
contractor who drew the figure confirmed to this committee in 
writing that he drew the figure on August 11, 2015, at EPA's 
request, and not before the spill, as Mr. Palumbo had just 
assumed. So, I would like to enter the contractor's email to 
the committee staff into the record.
    The Chairman. Without objection, the report and email will 
be part of the record.
    I just have four quick questions to end here.
    The first one is actually a request. When Mr. Lujan asked 
for the Army Corps of Engineers peer review, I would hope you 
would actually honor that, and just send that to us. If you 
need a letter or a subpoena, we will go that route; but I would 
prefer if you just honor his request.
    Here is where the questions start. You told Mr. Hardy that 
EPA, even though they knew a year in advance that there could 
be a problem, did not need to go by the letter of the 
Endangered Species Act, because they did not anticipate this 
actually happening.
    Does that mean that if some bulldozer actually runs over an 
endangered tortoise or an oil rig actually spills oil on a 
sage-grouse lek, that those are going to be acceptable excuses?
    Secretary Jewell. The question was related to a Section 7 
consultation.
    The Chairman. I know, but----
    Secretary Jewell. When you have something that happens 
accidentally, and the examples you bring up would be 
accidental, then I would not have expected an agency to have 
done a Section 7 consultation in advance, unless they felt 
there was a very high probability that that would happen. Then 
they would believe that a consultation may be appropriate.
    The Chairman. I think that is actually a fair answer. But 
we need to change the Endangered Species Act so it could 
reflect that. The Endangered Species Act does not give that 
kind of flexibility, and ought to; you are right.
    When you talked to Mr. Beyer, you said you did not think 
there was any negligence in this effect. Since you have already 
said that was outside of the scope of your report, and the 
report did not actually go into that, is that your personal 
opinion, that there was no negligence, or is that an official 
opinion that is not actually in the report?
    Secretary Jewell. That is my personal opinion, based on 
what I have read.
    The Chairman. All right. That is fair enough, as well.
    Let me go to Mr. Palumbo, and give you a chance--hopefully 
you mis-spoke a couple of hours ago. Mr. Gobla--if I pronounced 
that correctly--when he was there on August 14, at that point 
his role was that of a technical consultant for EPA at the Gold 
King Mine. So, for 6 days before EPA signed the contract for 
Reclamation to do this independent investigation, he was 
working alongside the EPA, offering technical expertise, 
helping them out with their responses.
    When exactly did he stop doing that, and start 
investigating the people with whom he was working?
    Mr. Palumbo. Let me just go backwards, briefly. In 2011, 
the Bureau of Reclamation was hired by EPA to do consultation 
on the Red and Bonita Mine. From 2011 through July 23, 2015 we 
did provide that service. Mike Gobla received the phone call on 
July 23, asking if he can come out on August 14 to help review 
the plans to remove the plug.
    On August 5, because of the spill, that work dissipated. 
Mike did honor the request to travel, and so he did go out 
there on August 14 to help stabilize the mine opening under 
that earlier Red and Bonita contract. It was 6 days later when 
the work plan was executed with EPA, pursuant to the scope that 
we spoke about here today, to conduct the technical 
investigation.
    The Chairman. All right, let me go through this, and this 
is the point that we are trying to make. He was working with 
them before and after he did the report on them, which violates 
standards of ethics and conflicts of interest by both the 
American Society of Civil Engineers, as well as the Reclamation 
Department. In your manual, independent peer reviews, it states 
that, ``persons who are not associated directly or indirectly 
with the information under review should be involved.''
    It presents a question of the independence of the 
investigation because of that relationship. The contract was on 
the board as you were mis-stating it earlier.
    So, if BOR actually acknowledges that they were financially 
supporting the Gold King Mine project, is that not a conflict 
of interest, to investigate a project you are funding?
    Mr. Palumbo. We do not believe that there was a conflict of 
interest. We were not funding that project, we were being----

    The Chairman. You were funding that project. By the 
standards you have already had, that should be considered a 
conflict of interest. There are questions and problems with the 
manner and the scope in which this report was given. I am 
sorry, that is the only way you can get around it.

    Ms. Jewell, I have one last request to clear up a lot of 
what the committee staff needs. If we could speak directly with 
Mr. Gobla, the person who was in charge of the report, would 
you agree to arrange for Mr. Gobla to come here and help us 
better understand this issue?

    Secretary Jewell. I believe we have provided all of the 
relevant information to this committee that is appropriate. I 
think, if you want to make that request, we would take it under 
advisement; but I do not have an answer for you at this time.

    The Chairman. Then we will send it to you in writing. I was 
hoping to have to avoid that. I know you do not like getting 
letters from me.

    Secretary Jewell. I will take a Christmas card.

    [Laughter.]

    The Chairman. No, no, no. You will take a happy holiday 
card.

    Mr. Grijalva, do you have anything to add?

    Mr. Grijalva. No, just to thank the Secretary; and Mr. 
Palumbo, thank you very much. And, what I think Mr. Lujan 
alluded to or directly talked about, that there are lessons to 
be learned.
    There are two areas that I--the whole conflict of interest 
issue I think is not part of this hearing, in the long term. 
There is no smoking gun there. The other issue I think is in 
comparing Deepwater Horizon with the Gold King Mine. There is 
no correlation. The cause is a mistake, an error, the lack of 
preparation. But to make a negligence in one case, in both 
cases--whoever did that mine left it that way.

    So, I think lessons to be learned, how to coordinate better 
between agencies, how to communicate better with our 
constituents and the public, and how to have a uniform protocol 
that goes across agencies, that is what is to be learned. I 
look forward to any help and information that you can provide 
this committee on that.

    With that, thank you very much for being here.

    The Chairman. Thank you. I thank you for being here, as 
well. Since you just one-upped me with that comment, damn it, 
now I have to give you a Christmas card.

    [Laughter.]

    Secretary Jewell. I will give you one, too.

    The Chairman. It will be in the mail. And, there will not 
be any fruitcake involved in this, OK? Just the card.

    There may be some additional questions for the Secretary. 
We would like you to respond in writing. Committee Rule 4(g) 
says the hearing record will be open for 10 business days. If 
you get those questions, I would appreciate a timely response 
to them, as well.

    If there is no further business, then once again, with 
gratitude for your being here and taking the time out of your 
busy schedule to join us, we are adjourned. Thank you.

    [Whereupon, at 12:40 p.m., the committee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

Slide used by Chairman Bishop showing a copy of the EPA/BOR 
Superfund Work Authorization Form signed between two 
departments

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   Slides used by Representative Newhouse with pages from the 
Technical Evaluation of the Gold King Mine Incident from the 
U.S. Geological Survey, U.S Army Corp of Engineers, and the 
Bureau of Reclamation showing discrepancy in reviewers listed


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



   E-mail from Elliot Petri to Subcommittee Staff regarding 
the Gold King Mine Incident [sensitive info redacted]. 
Submitted by Representative Lummis


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE 
                      COMMITTEE'S OFFICIAL FILES]

  --  Bureau of Reclamation report, ``Technical Evaluation of 
            the Gold King Mine Incident,'' October 2015. 
            Submitted by Chairman Bishop

  --  U.S. Forest Service publication, ``Abandoned Mine Lands: 
            A Decade of Progress Reclaiming Hardrock Mines.'' 
            Submitted by Representative Lummis

  --  A video clip used by Representative Gohmert involving EPA 
            Administrator Gina McCarthy's response to a 
            question on the scope of DOI's review of the Gold 
            King Mine Incident

                                 [all]
</pre></body></html>
